<html>
<title> - [H.A.S.C. No. 113-55] PROPOSED AUTHORIZATION TO USE MILITARY FORCE IN SYRIA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-55] 

         PROPOSED AUTHORIZATION TO USE MILITARY FORCE IN SYRIA 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 10, 2013

                                     
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, September 10, 2013, Proposed Authorization to Use 
  Military Force in Syria........................................     1

Appendix:

Tuesday, September 10, 2013......................................    57
                              ----------                              

                      TUESDAY, SEPTEMBER 10, 2013
         PROPOSED AUTHORIZATION TO USE MILITARY FORCE IN SYRIA
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Dempsey, GEN Martin, USA, Chairman, Joint Chiefs of Staff........    11
Hagel, Hon. Chuck, Secretary of Defense..........................     8
Kerry, Hon. John, Secretary of State.............................     3

                                APPENDIX

Prepared Statements:

    Hagel, Hon. Chuck, joint with GEN Martin Dempsey.............    71
    Kerry, Hon. John.............................................    65
    McKeon, Hon. Howard P. ``Buck''..............................    61
    Smith, Hon. Adam.............................................    63

Documents Submitted for the Record:

    State Department report on Syria's progress toward meeting 
      conditions of the Syria Accountability and Lebanese 
      Sovereignty Restoration Act of 2003........................    81

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................    93
    Mr. Carson...................................................    94
    Ms. Duckworth................................................    95
    Mr. Enyart...................................................    98
    Mr. Garamendi................................................    90
    Mr. Gibson...................................................    95
    Mr. Jones....................................................    89
    Mrs. Noem....................................................   100
    Ms. Speier...................................................    93
         PROPOSED AUTHORIZATION TO USE MILITARY FORCE IN SYRIA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Tuesday, September 10, 2013.
    The committee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    Before we begin the business of the committee, I want to 
make clear that members of the audience must maintain order, 
and refrain from manifestations of approval or disapproval of 
the committee proceedings, or interfere with the conduct of the 
committee's business. Any comments or disruptions during the 
hearing from the public will not be tolerated and, if 
necessary, will result in removal from the committee room. I 
want to state this at the outset so everybody knows the rules.
    Good morning, ladies and gentlemen. The House Armed 
Services Committee meets to receive testimony on the 
President's proposed authorization to the use of military force 
in Syria. Our witnesses include Secretary of State John Kerry, 
Secretary of Defense Chuck Hagel, and Chairman of the Joint 
Chiefs of Staff Martin Dempsey.
    Gentlemen, thank you for being with us today. You have had 
a very, very busy week. We appreciate your time and the effort 
that you have made to be with us and to inform this committee 
and the American public of the important work that you are 
engaged in.
    This committee has closely monitored the conflict in Syria. 
Throughout, this committee has focused on understanding the 
strategic context, the options, the risks of those options, as 
well as the costs of military action in Syria. Today I hope our 
witnesses will focus not only on the case for military action 
that has been made over the last 2 weeks, but also address the 
justifiable concerns that have been raised by Members on a 
bipartisan basis. This includes understanding more about likely 
second-order effects, how a limited strike will achieve our 
policy goals, and the planning that has been done to respond 
should Assad miscalculate in terms of both operational and 
financial planning. What options, short of additional military 
action, do we have to respond to escalation or retaliation.
    Secretary Hagel, although you have estimated that this 
operation will cost tens of millions of dollars, in April of 
this year you testified, ``Let's start with the question of how 
do you pay for military action in Syria if we do something. 
Yes, I think it's pretty clear that a supplemental would be 
required.''
    History tells us that there will likely be second- or 
third-order effects that demand further U.S. military action. 
Therefore, it gives me great pause that we have not addressed 
the devastating cuts to our military due to sequestration, even 
as we commit our military to another new mission. We have 
surged troops to Afghanistan and cut the military's budget. We 
have flown missions over Libya and cut the military's budget. 
We are pivoting to the Asia-Pacific and cutting the military's 
budget. All told, these cuts total an outstanding $1.2 
trillion, and now we are considering strikes on Syria while the 
military's budget continues to be cut.
    I share President Obama's concern about Assad's vicious use 
of chemical weapons on his people. I am also deeply concerned 
about the United States standing in the region. When the 
President drew his red line, he put America's cards on the 
table. A leader either enforces his red lines, or he becomes 
irrelevant. However, I am equally concerned about the condition 
of a military that has been chewed up from budget cuts, and 
years of fighting, and the lack of certainty.
    This Chief and the Chiefs that serve with him have not had 
a budget in their term in this office. They do not know really 
what they have to spend at the end of this month going into 
next year. It is not a way to run an organization. We cannot 
keep asking the military to perform dangerous mission after 
mission with multiple rounds of defense cuts, including 
sequestration, hanging over their heads.
    Through decisiveness, clarity of purpose, and leadership, 
the President has the power to allay many of these concerns. I 
look forward to answers to these questions and to your 
testimony here today.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 61.]
    The Chairman. Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I thank you for this 
hearing. I want to thank our witnesses, Secretary Kerry, 
Secretary Hagel, General Dempsey, for being here and for your 
outstanding leadership during this crisis and on many, many 
other difficult issues that we face as a country.
    I think there is no question at this point that Assad used 
chemical weapons in Syria. The evidence, the intelligence case 
that has been made has been overwhelming in the hearings that I 
have been to. This, of course, is on the heels of a civil war 
in which Assad has killed somewhere in the neighborhood of 
100,000 of his own civilians, which is a series of abhorrent 
acts in and of themselves.
    The challenge for us in this panel, you know, and for the 
people who are testifying today is how best to respond to all 
of this, how best to hold President Assad accountable for all 
of this. There is no question, and I agree completely, that 
trying to control proliferation of chemical weapons is a goal 
that we must have as a Nation and must go forward. But can a 
one-time limited military strike accomplish that? And I think 
what our committee wants to hear today is how is that going to 
happen? How will this one-time strike be enough to hold Assad 
accountable, while not creating more chaos and running the risk 
that these very dangerous weapons would fall, frankly, into 
even more dangerous hands, given the presence of Al Qaeda and 
other groups in Syria that would not be friendly to us, and it 
would be very dangerous. How do you strike that balance between 
holding Assad accountable and not creating a worse situation? 
It is very, very difficult. We are going to have some serious 
questions today as to how that is accomplished, and we look 
forward to hearing answers from our witnesses to help us better 
understand this problem.
    Also, we are very interested in how serious the Russian 
proposal is. If you think that is a worthy goal in terms of 
holding Assad accountable and eliminating the chemical weapons, 
is that something that can happen? We definitely want to hear 
how you think that plays into our decisions going forward.
    Lastly, I just want to agree with the chairman on 
sequestration. It is an enormous problem. Certainly it adds a 
layer of complication for every conflict that comes up, 
including the one in Syria. And personally I would end 
sequestration tomorrow. You know, we can talk about how to get 
the budget deficit under control long term, revenues and 
spending and all of that, but the one thing we know is that 
sequestration is really devastating our military, causing a 
number of problems in other portions of the budget. It was 
never meant to be implemented; it was meant to be a forcing 
mechanism, an intention that has clearly failed. I think we 
should just eliminate it, and then we can get back to a 
discussion of how to control the deficit without torturing the 
discretionary budget on a day-in-and-day-out basis. So if this 
Syrian crisis prompts a more serious discussion of that, that 
will be one tiny little positive in what is otherwise a very, 
very dangerous situation.
    I look forward to the testimony and to the questions from 
our committee. And again, I thank this distinguished panel for 
being here today.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 63.]
    The Chairman. Thank you.
    Secretary Kerry.

        STATEMENT OF HON. JOHN KERRY, SECRETARY OF STATE

    Secretary Kerry. Chairman McKeon, Ranking Member Smith, and 
distinguished members of the committee, privileged to be here 
this morning with Secretary Hagel and General Dempsey. And we 
are, all of us, all three of us, very much looking forward to a 
conversation with you about this complicated, challenging, but 
critical issue that our country faces.
    And we don't come to you lightly. I think Secretary Hagel 
and I particularly come here with an enormous amount of respect 
for this process, for what each of you go through at home, and 
the challenges you face with constituents, and the complexity 
of this particular issue. So this is good. It is good that we 
are here, and we look forward to the conversation.
    And as we convene at this hearing, it is no exaggeration at 
all to say to you that the world is watching, and they are 
watching not just to see what we decide, they're watching to 
see how we decide it. Whether or not we have the ability at 
this critical time, when so much is on the line in so many 
parts of the world, as challenges to governance writ large, it 
is important that we show the world that we actually do have 
the ability to hopefully speak with one voice, and we believe 
that that can make a difference.
    Needless to say, this is one of the most important 
decisions that any Member of Congress makes during the course 
of their service, and we all want to make sure we get plenty of 
time here for discussion. Obviously this is a very large 
committee, and so we will try to summarize in these comments 
and give the opportunity for the Q&A [questions and answers].
    But I just want to open with a few comments about questions 
I am hearing from many of your colleagues and, obviously, from 
the American people and what we read in the news.
    First, people ask me, and they ask you, I know, why we are 
choosing to have a debate on Syria at a time when there is so 
much that we need to be doing here as home, and we all know 
what that agenda is. Let me assure you the President of the 
United States didn't wake up one day and just kind of 
flippantly say, ``Let's go take military action in Syria.'' He 
didn't choose this. We didn't choose this. We are here today 
because Bashar al Assad, a dictator who has chosen to meet the 
requests for reform in his country with bullets and bombs and 
napalm and gas, because he made a decision to use the world's 
most heinous weapons to murder more than, in one instance, more 
than 1,400 innocent people, including more than 400 children. 
He and his regime made a choice, and President Obama believes, 
and all of us at this table believe, that we have no choice but 
to respond.
    Now, to those who doubt whether Assad's actions have to 
have consequences, remember that our inaction absolutely is 
guaranteed to bring worse consequences. You, every one of you 
here, we, all of us, America will face this, if not today 
somewhere down the line, when the permissiveness of not acting 
now gives Assad license to go do what he wants and threaten 
Israel, and threaten Jordan, threaten Lebanon, create greater 
instability in a region already racked by instability where 
stability is one of the greatest priorities of our foreign 
policy and of our national security interests.
    That brings me to the second question that I have heard 
lately, which is sort of what is really at stake here? You 
know, does this really affect us? I met earlier today with 
Steve Chabot and had a good conversation. I asked him, you 
know, ``What are you hearing?'' I know what you are all 
hearing. The instant reaction of a lot of Americans anywhere in 
our country is, whoa, we don't want to go war again, we don't 
want to go to Iraq, we don't want to go to Afghanistan. We have 
seen how those turned out.
    I get it. And I will speak to that in a minute. But I want 
to make it clear at the outset, as each of us at this table 
want to make clear, that what Assad has done directly affects 
America's security. America's security. We have a huge national 
interest in containing all weapons of mass destruction. And the 
use of gas is a weapon of mass destruction. Allowing those 
weapons to be used with impunity would be an enormous chink in 
our armor that we have built up over years against 
proliferation.
    Think about it. Our own troops benefit from that 
prohibition against chemical weapons. I mentioned yesterday in 
the briefing, many of you were there, and some of you, I notice 
from decorations, otherwise, I know many of you have served in 
the military, some of you still in the Reserves. And you know 
the training that we used to go through with when you are, you 
know, learning. And I went to chemical/nuclear/biological 
warfare school, and I remember going in a room in a gas mask, 
and they make you take it off, and you see how long you can do 
it, and it ain't for long.
    Those weapons have been outlawed, and our troops in all of 
the wars we have fought since World War I have never been 
subjected to it because we stand up for that prohibition. There 
is a reason for that.
    If we don't answer Assad today, we will irreparably damage 
a century-old standard that has protected American troops in 
war. So to every one of your constituents, if they were to say 
to you, why would you vote for this even though we said we 
don't want to go war, because you want to protect American 
troops, because you want to protect America's prohibition and 
the world's prohibition against these weapons.
    The stability of this region is also in our direct security 
interest. Our allies, our friends in Israel, Jordan and Turkey 
are, all of them, just a strong wind away from being injured 
themselves or potentially from a purposeful attack. Failure to 
act now will make this already volatile neighborhood even more 
combustible, and it will almost certainly pave the way for a 
more serious challenge in the future.
    And you can just ask our friends in Israel or elsewhere; in 
Israel they can't get enough gas masks. And there is a reason 
that the Prime Minister has said this matters, this decision 
matters. It is called Iran. Iran looms out there with its 
nuclear program and the challenge we have been facing, and that 
moment is coming closer in terms of a decision. They are 
watching what we do here. They are watching what you do and 
whether or not this means something.
    If we choose not to act, we will be sending a message to 
Iran of American ambivalence, American weakness. It will raise 
a question. I have heard this question. As Secretary of State, 
as I meet with people and they ask us about sort of our long-
term interests in the future with respect to Iran, they have 
asked me many times, do you really mean what you say? Are you 
really going to do something? They ask whether or not the 
United States is committed, and they ask us also, if the 
President cuts a deal, will the Congress back it up? Can he 
deliver? This is all integrated.
    I have no doubt, I talked to Prime Minister Netanyahu 
yesterday, Israel does not want to be in the middle of this, 
but we know that their security is at risk, and the region is 
at risk.
    I also want to remind you, you have already spoken to this. 
Your word is on the line, too. You passed the Syria 
Accountability Act, and that act clearly states that Syria's 
chemical weapons threaten the security of the Middle East. That 
is in plain writing. It is in the act. You voted for it. We 
have already decided these chemical weapons are important to 
the security of our Nation. I quote, ``The national security 
interests of the United States are''--``the national security 
interests of the United States are at risk with the chemical 
weapons of Syria.''
    The fourth question I have been asked a lot of times is why 
diplomacy isn't changing this dynamic. Isn't there some 
alternative that could avoid this? And I want to emphasize on 
behalf of President Obama, President Obama's first priority 
throughout this process has been and is diplomacy. Diplomacy is 
our first resort. And we have brought this issue to the United 
Nations Security Council on many occasions. We have sent direct 
messages to Syria, and we have had Syria's allies bring them 
direct messages: Don't do this. Don't use these weapons. All to 
date to no avail.
    In the last 3 years, Russia and China have vetoed three 
Security Council resolutions condemning the regime for inciting 
violence, or resolutions that simply promote a political 
solution to the dialogue, to the conflict. Russia has even 
blocked press releases, press releases, that do nothing more 
than express humanitarian concern for what is happening in 
Syria or merely condemned the generic use of chemical weapons, 
not even assigning blame. They have blocked them. We have 
brought these concerns to the United Nations, making a case to 
the members of the Security Council that protecting civilians, 
prohibiting the use of chemical weapons, and promoting peace 
and security are in our shared interests, and those general 
statements have been blocked.
    That is why the President directed me to work with the 
Russians and the region's players to get a Geneva II peace 
negotiation under way. And the end to the conflict in Syria, we 
all emphasize today, is a political solution. None of us are 
coming to you today asking for a long-term military--I mean, 
some people think we ought to be, but we don't believe there is 
any military solution to what is happening in Syria. But make 
no mistake, no political solution will ever be achievable as 
long as Assad believes he can just gas his way out of this 
predicament.
    We are without question building a coalition of support for 
this now. Thirty-one countries have signed on to the G20 [Group 
of 20] statement, which is a powerful one, endorsing the United 
States efforts to hold Assad accountable for what he is doing. 
Turkey, Saudi Arabia, Qatar, France, and many others are 
committed to joining with us in any action. We are now in the 
double digits with respect to countries that are prepared to 
actually take action should they be needed, were they capable 
of it.
    I mentioned 31 nations signing on to the G12 [Group of 12] 
statement. But our diplomatic hand, my former colleagues, our 
diplomatic hand only becomes stronger if other countries know 
that America is speaking with a strong voice here, with one 
voice, and if we are stronger as a united Nation around this 
purpose. In order to speak with that voice, we need you, the 
Congress.
    That is what the President did. Many of you said, please 
bring this to Congress. The President has done that. And he is 
bringing it to Congress with confidence that the Congress will 
want to join in an effort to uphold the word of the United 
States of America, not just the President, but the United 
States of America, with respect to these weapons of mass 
destruction.
    Now, I want to be crystal clear about something else. Some 
people want to do more in Syria. Some people are leery about 
doing anything at all. But one goal we ought to all be able to 
agree on is that chemical weapons cannot be under the control 
of a man so craven that he has repeatedly used those chemical 
weapons against his fellow Syrians, with the horrific results 
that all of us have been able to see.
    Yesterday we challenged the regime to turn them over to the 
secure control of the international community so that they 
could be destroyed, and that, of course, would be the ultimate 
way to degrade and to deter Assad's arsenal, and it is the 
ideal way to take this weapon away from him. Assad's chief 
benefactor, the Russians, have responded by saying that they 
could come up with a proposal to do exactly that. And we have 
made it clear to them, I have in several conversations with 
Foreign Minister Lavrov, that this cannot be a process of 
delay, this cannot be a process of avoidance; it has to be 
real, has to be measurable, tangible. And it is exceedingly 
difficult, I want everybody here to know, to fulfill those 
conditions.
    But we are waiting for that proposal, but we are not 
waiting for long. President Obama will take a hard look at it. 
But it has to be swift, it has to be real, it has to be 
verifiable. It cannot be a delaying tactic. And if the United 
Nations Security Council seeks to be the vehicle to make it 
happen, that cannot be allowed to simply become a debating 
society.
    Now, many countries, many of you in the Congress, from 
those who wanted military action to those who were skeptical of 
military action, want to see if this idea could become a 
reality. But make no mistake, make no mistake about why this 
idea has any potential legs at all, and why it is that the 
Russians have reached out to the Syrians, and why the Syrians 
have initially suggested they might be interested.
    A lot of people say that nothing focuses the mind like the 
prospect of a hanging. Well, it is the credible threat of force 
that has been on the table for these last weeks that has for 
the first time brought this regime to even acknowledge that 
they have a chemical weapons arsenal. And it is the threat of 
this force and our determination to hold Assad accountable that 
has motivated others to even talk about a real and credible 
international action that might have an impact.
    So how do you maintain that pressure? We have to continue 
to show Syria, Russia, and the world that we are not going to 
fall for stalling tactics. If the challenge we laid down is 
going to have the potential to become a real proposal, it is 
only because of the threat of force that we are discussing 
today, and that threat is more compelling if Congress stands 
with the Commander in Chief.
    Finally, let me just correct a common misperception. In my 
conversation with Steve Chabot earlier today, he mentioned 
this, I have heard it; I have talked with many of you, you have 
told me you hear it. The instant reaction of a lot of 
Americans--and I am completely sympathetic to it, I understand 
it, I know where it comes from, I only stopped sitting where 
you sit a few months ago, I know exactly what the feelings 
are--people don't want another Iraq. None of us do. We don't 
want Afghanistan. But, Mr. Chairman, with all due respect, we 
can't make this decision based solely on the budget. We can't 
make this decision based solely on our wishes, on our feeling 
that we know we have been through the wringer for a while. We 
are the United States of America, and people look to us. They 
look to us for the meaning of our word, and they look to us for 
our values, in fact, being followed up by the imprint of action 
where that is necessary.
    We are not talking about America going to war. President 
Obama is not asking for a declaration of war. We are not going 
to war. There will be no American boots on the ground. Let me 
repeat, no American boots will be on the ground. What we are 
talking about is a targeted, limited, but consequential action 
that will reinforce the prohibition against chemical weapons. 
And General Dempsey and Secretary Hagel will tell you how we 
can achieve that and their confidence in our ability to achieve 
that. We are talking about an action that will degrade Assad's 
capacity to use these weapons and to ensure that they do not 
proliferate. And with this authorization the President is 
asking for the power to make sure that the United States of 
America means what we say.
    Mr. Chairman, Mr. Ranking Member, and members of this 
committee, I can say to you with absolute confidence the risk 
of not acting is much greater than the risk of acting. If we 
fail to act, Assad will believe that he has license to gas his 
own people again, and that license will turn prohibited weapons 
into tactical weapons. And General Dempsey can tell you about 
this. It would take an exception, a purposeful exception that 
has been in force since 1925, and make it the rule today. It 
would undermine our standing, degrade America's security and 
our credibility, and erode our strength in the world.
    In a world of terrorists and extremists, we would choose to 
ignore those risks at our peril. We cannot afford to have 
chemical weapons transform into the new convenient weapon, the 
IED [improvised explosive device], the car bomb, the weapon of 
everyday use in this world. Neither our country nor our 
conscience can bear the costs of inaction, and that is why we 
have come before you at the instruction of the President to ask 
you to join us in this effort.
    [The prepared statement of Secretary Kerry can be found in 
the Appendix on page 65.]
    Secretary Kerry. Secretary Hagel.

      STATEMENT OF HON. CHUCK HAGEL, SECRETARY OF DEFENSE

    Secretary Hagel. Mr. Chairman, Ranking Member Smith, and 
members of the committee, the Department of Defense has 
responsibility to protect the national security interests of 
the United States, and General Dempsey and I take that 
responsibility very seriously. That is why I strongly support 
President Obama's decision to respond to the Assad regime's 
chemical weapons attack on its own people, a large-scale and 
heinous sarin gas assault on innocent civilians, including 
women and children.
    I also wholeheartedly support the President's decision to 
seek congressional authorization for the use of force in Syria, 
and I believe Secretary Kerry outlined those reasons very 
clearly.
    The President has made clear that it is in our country's 
national security interest to degrade Assad's chemical weapons 
capabilities and to deter him from using them again. As 
Secretary Kerry mentioned, yesterday we outlined a way to 
accomplish this objective and divert military action. It would 
require the Assad regime to swiftly turn its chemical weapons 
arsenal over to international control so it can be destroyed 
forever, as President Obama noted, in a verifiable manner.
    All of us are hopeful that this option might be a real 
solution to this crisis, yet we must be very clear-eyed and 
ensure it is not a stalling tactic by Syria and its Russian 
patrons. And for this diplomatic option to have a chance of 
succeeding, the threat of a U.S. military action, the credible, 
real threat of U.S. military action, must continue as we are 
talking today and will continue to talk and discuss throughout 
the week.
    It was the President's determination to hold Assad 
accountable and the fact that he put military action on the 
table that enabled this new diplomatic track to maybe gain some 
momentum and credibility. The support of Congress for holding 
Assad accountable will give even more energy and more urgency 
to these efforts.
    So Congress has a responsibility to continue this important 
debate on authorizing the use of force against the Syrian 
regime. As each of us knows, committing our country to using 
military force is the most difficult decision leaders will 
make. All of those who are privileged to serve our Nation have 
a responsibility to ask the tough questions before that 
commitment is made. We must be able to assure the American 
people that their leaders are acting according to U.S. national 
interests with well-defined military objectives, and with an 
understanding of the risks and the consequences involved. The 
President and his entire national security team asked those 
difficult questions before we concluded that the United States 
should take military action against Syrian regime targets.
    I want to address briefly how we reached this decision by 
clarifying the U.S. interests at stake here today and in the 
future, our military objectives, and the risks of not acting at 
this critical juncture.
    As President Obama has said, the use of chemical weapons in 
Syria is not only an assault on humanity, it is a serious 
threat to America's national security interests and those of 
our closest allies. The Syrian regime's actions risk eroding 
the long-standing international norm against the use of 
chemical weapons, the norm that has helped protect the United 
States homeland and American forces operating across the globe 
from these terrible weapons.
    The weakening of this norm has grave consequences for our 
troops, our country's future security, and for global 
stability. These weapons are profoundly destabilizing and have 
rightfully been rejected by the international community.
    Syria's use of chemical weapons also threatens our friends 
and partners along its borders, including Israel and Jordan, 
Turkey, Lebanon, and Iraq. It increases the risks that 
terrorist groups like Hezbollah, which has forces in Syria 
supporting the Assad regime, could acquire chemical weapons and 
use them against our interests and our people.
    We must do all we can to prevent Hezbollah or any terrorist 
group determined to strike the United States from acquiring 
chemical weapons, and we cannot allow terrorist groups in 
authoritarian regimes to mistakenly believe that they can use 
chemical weapons against U.S. troops or America's friends and 
partners in regions without severe consequences. Our allies 
throughout the world must be assured that the United States 
will stand by its security commitments and stand by its word.
    Our adversaries must not believe that they can develop and 
use weapons of mass destruction without consequences. A world 
where these adversaries are emboldened instead of deterred is 
not the world that we want to live in, as President Obama said 
last week.
    For example, North Korea, with its massive stockpile of 
chemical weapons, threatens our treaty ally the Republic of 
Korea; directly threatens the 28,000 U.S. troops stationed 
there on the DMZ [Demilitarized Zone]. During my recent trip to 
Asia, I had a very serious and long conversation with the South 
Korean defense minister about this real threat that North 
Korea's chemical weapons presents to them and to our troops.
    Given these threats to our national security, the United 
States must demonstrate through our actions that the use of 
chemical weapons is unacceptable.
    The President has made clear that our military objectives 
in Syria would be to hold the Assad regime accountable for its 
chemical weapons attack, degrade its ability to carry out these 
kinds of attacks, and deter the regime from further use of 
chemical weapons. The Department of Defense has developed 
military options to achieve these objectives, and we have 
positioned U.S. assets throughout the region to successfully 
execute the mission. We believe we can achieve them; we can 
achieve them with a military action that would be targeted, 
consequential, and limited.
    General Dempsey and I have assured the President that U.S. 
forces will be ready to act whenever the President gives the 
order. We are working to build broad international support for 
this effort, as Secretary Kerry has noted. Last week at the 
G20, the leaders of a number of countries condemned this 
atrocity and called for a strong international response. In the 
days since, a number of other nations have also signed on to 
this statement, as Secretary Kerry has also noted.
    In defining our military objectives, we have made clear 
that we are not seeking to resolve the underlying conflict in 
Syria through direct military force. We will not send America's 
sons and daughters to fight another country's civil war. We are 
not contemplating any kind of open-ended intervention or an 
operation involving American ground troops.
    A political solution created by the Syrian people is the 
only way to ultimately end the violence in Syria, and Secretary 
Kerry is helping lead that international effort to help the 
parties in Syria move toward a negotiated transition. We have 
also expanded our assistance to the moderate Syrian opposition.
    The military action we are contemplating will reinforce the 
larger strategy, strengthening diplomatic efforts, and making 
clear to Assad that he cannot achieve victory through further 
violence.
    Having defined America's interests, our military 
objectives, we also must examine closely the risks and 
consequences. There are always risks in taking action, but 
there are also significant risks with inaction. The Assad 
regime, under increasing pressure from the Syrian opposition 
and with a massive arsenal of chemical weapons, could feel 
empowered to carry out even more devastating chemical weapons 
attacks. This would deepen the refugee crisis faced by Syria's 
neighbors and further destabilize the region.
    A refusal to act would undermine the credibility of the 
United States, including the credibility of the President's 
commitment to prevent Iran from acquiring nuclear weapons.
    The word of the United States must mean something. It is 
vital currency in foreign relations, in international and 
allied commitments. Every witness here today, Secretary Kerry, 
General Dempsey and myself, has served in uniform, fought in 
war, and we have seen its ugly realities up close, like many of 
you. We understand that a country faces few decisions as grave 
as using military force. We are not unaware of the costs and 
ravages of war. But we also understand that America must 
protect its people, and we must protect our national interests 
not just for the immediate, but for the future. That is our 
highest responsibility.
    All of us who have the privilege and responsibility of 
serving this great Nation owe the American people, and 
especially those wearing the uniform of our country, a vigorous 
debate on how America should respond to the horrific chemical 
weapons attack in Syria. I know everyone on this committee 
agrees and takes the responsibility of office just as seriously 
as the President and everyone at this table does.
    Mr. Chairman, thank you.
    [The joint prepared statement of Secretary Hagel and 
General Dempsey can be found in the Appendix on page 71.]
    The Chairman. Thank you.
    General Dempsey.

STATEMENT OF GEN MARTIN DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS OF 
                             STAFF

    General Dempsey. Chairman McKeon, Ranking Member Smith, 
members of the committee, thanks for the opportunity to share 
my perspective on the use of force in Syria. And let me also 
thank you for your service on this committee and the great 
support you provide to America's Armed Forces.
    The President has made the determination that it is in our 
national interest to respond to Assad's use of chemical weapons 
with limited military force. We have reached the point at which 
Assad views chemical weapons as just another military tool in 
his arsenal, a tool he is willing to use indiscriminately, and 
that is what makes this so dangerous; dangerous for Syria, 
dangerous for the region, and dangerous for the world.
    My role is to provide the President options about how we 
could employ military force. He has directed me to plan for a 
militarily significant strike that would do the following: 
deter the Assad's regime further use of chemical weapons and 
degrade the regime's military capability to employ chemical 
weapons in the future.
    We have assembled target packages in line with those 
objectives. We have both an initial target set and subsequent 
target sets should they become necessary. The planned strikes 
will disrupt those parts of Assad's forces directly related to 
the chemical attack of 21 August; degrade his means of chemical 
weapons delivery; and finally, degrade the assets that Assad 
uses to threaten his neighbors and to defend his regime. 
Collectively such strikes will send Assad a deterrent message 
demonstrating our ability to hold at risk the capabilities he 
values most and to strike again, if necessary. United States 
military has forces ready to carry out the orders of the 
Commander in Chief.
    The limited nature of these strikes seeks to mitigate the 
potential for a miscalculation and escalation, as well as 
minimize collateral damage; however, we are postured to address 
a range of contingencies, and we are prepared to support our 
friends in the region should Assad choose to retaliate.
    I don't have to tell you this, but the men and women of 
America's Armed Forces are exceptionally well trained, and they 
are prepared. I am honored to represent them. If called to 
execute, your military will respond. And I stand ready to 
answer your questions.
    [The joint prepared statement of General Dempsey and 
Secretary Hagel can be found in the Appendix on page 71.]
    The Chairman. Thank you very much.
    Secretary Kerry, last week before the Senate Foreign 
Relations Committee and the House Foreign Affairs Committee, 
you testified that Congress had to act, had to vote in support 
of the authorization for the use of military force. Your 
testimony today no longer explicitly stated that.
    Given Russia's proposal to put chemical weapons under 
international control and Assad's agreement to this proposal, 
has the administration's position on the AUMF [Authorization to 
Use Military Force] changed? Is the AUMF necessary? And will 
the President still seek a congressional vote on the AUMF?
    Secretary Kerry. Chairman McKeon, again, as I said in my 
testimony, the President believes we need to keep this threat, 
this reality absolutely on the table. He wants the Congress to 
act. But I think that the Senate has made a decision to hold 
off to see whether there are any legs in this Russian proposal.
    So we want you to act. We want this. There is no daylight 
with respect to the administration's commitment to keep moving 
with the Congress in the direction of securing this 
authorization, because we need to know that if this can't be 
performed, or this is a delay, or this is a game, or this is 
unreal, that we are speaking with one voice, and we are going 
to hold the Assad regime accountable.
    So the answer is that the use of force absolutely should 
not be off the table. We are not asking Congress not to vote. 
But it may be, given what the Senate leader has decided, that 
we see if the Russians make a proposal in the next hours or 
not. That is up to the President to decide. Nothing has changed 
with respect to our request that the Congress take action with 
respect to this. As to when and how, that is something the 
President may want to chat with the leadership about.
    The Chairman. Thank you.
    General Dempsey, you heard the concerns that I raised in my 
opening statement about committing our military to another 
mission, in this case a combat mission, without addressing the 
issue of sequestration and the associated readiness crisis. 
Would you agree that it is not possible to anticipate all of 
the second- and third-degree or third-order effects of military 
action, and, therefore, it is not possible to determine the 
final cost of a strike against Syria in terms of impacts to our 
combat readiness and the cost?
    General Dempsey. Thanks, Chairman.
    As you know, America is unmatched in our ability to employ 
military power. This is conceived as a limited operation and, 
therefore, well within our capability to conduct it.
    I share your concern and have expressed it in this hearing 
room and elsewhere about the possibility that, due to 
sequestration, the force that sits behind the deployed force 
won't be ready. So I am concerned not about this operation, but 
in general, that unforeseen contingencies will be impacted in 
the future if sequestration continues.
    The Chairman. I think Admiral Greenert pointed out last 
week that even having the destroyers there in the region and 
the cost of having the aircraft carrier task force, you know, 
we are talking maybe $30 million a week. These numbers add up, 
they are fungible, but the money has to be found somewhere. 
Generally what is happening is it is coming out of readiness 
and O&M [operations and maintenance].
    General Dempsey. Chairman, could I add just for the entire 
committee's--just so you know, I share your concern completely 
with sequestration. I hope I have been clear about that. But we 
are talking about something here that we have articulated as in 
our national interest. And my assumption, and I hope you would 
agree, is that if something is in our national interest and we 
choose to act on it, that we can find the money to pay for it.
    The Chairman. I have no question that you will find the 
money, General, it is just where do you find it, and does it 
deplete our readiness for other areas. We still are at war in 
Afghanistan; we still have troops over there that we need to 
see are adequately trained, those who are being deployed.
    I have one other question. This talk of Russia and an 
international community coming in and taking charge and 
destroying the chemical weapons. I have heard in the past from 
our military leaders that this is a very expensive operation; 
that it would take troops on the ground, whoever provides 
them--United Nations or whoever provides them, there would have 
to be troops on the ground securing these weapons, and 
knowledgeable people, and the expense of destroying this. And I 
have heard whoever takes it over owns it. Is there any 
discussion who is going to pay for that?
    Generally when the international community does something, 
we are the ones that end up paying for it. And I feel I have to 
keep bringing these issues up because I think, as I go out and 
see, talk to--visit bases and see the training that is going on 
and hear that, you know, we can't afford to cut the lawn, or we 
can't afford to fire our weapons as many times as we did last 
year in training, all of these things have an impact. And I 
know we have gone over this many hearings, and you have 
testified, General, of what impact this is having. And we need 
to remind people of the $487 billion cuts before we even got to 
sequestration.
    So it is not going away, and I think we need to be aware 
that that has to be a part of a consideration, as important as 
things are, that we also have to consider how we are going to 
pay for it and what other ramifications it has on our military.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Secretary Kerry, I think in your opening remarks you talk 
about war-weariness. I think that misses the mark slightly in 
terms of what our concerns are. It is not so much the weariness 
of those wars, though certainly we are, it is the lessons that 
we should have learned or did learn from those wars, and the 
lessons about the limitation of American military power to fix 
problems in the world.
    I mean, undeniably, Saddam Hussein was a problem in the 
Middle East. I mean, gosh, we had two no-fly zones, we had 
sanctions, we had all kinds of controversy in dealing with him. 
And you could easily imagine a better situation in Iraq than 
one that Saddam Hussein presented. But I think we learned that 
the ability of the U.S. military to simply come in there and 
create a better situation was limited, particularly if there is 
a lack of international support.
    So I think the concern is not so much that we are weary of 
war, but what is the U.S. military response going to do to 
truly fix the situation in Syria? Can we pretty much 
unilaterally--yes, some other countries have expressed broad 
support. Virtually nobody at this point is stepping up, I think 
nobody actually is stepping up at this point to pony up any 
money or any resources or to put their--put their military on 
the line. So we are pretty much on our own. And I would just 
like you to talk a little bit about, do we understand the 
limitations of that?
    One of the things as a policymaker that I was hoping that 
we could get to under President Obama is a more realistic 
explanation to the rest of the world of what we in the U.S. can 
and cannot fix, because the expectations out there in the world 
are off the charts. I was just in Jordan and Afghanistan and 
the UAE [United Arab Emirates], and I think there was this 
feeling that if anything happens in the world, it has to be the 
U.S.'s fault because we are powerful enough to fix it, and that 
is just not true. I would like to sort of downsize those 
expectations. And it is that limitation on military power that 
we are concerned about here.
    And that brings me to the second part of the question. You 
know, if a leader uses chemical weapons, the obvious way to 
hold him accountable, first of all, would be it would be nice 
to build some international support, but, second of all, remove 
him from power, if that is what is done. And if you don't 
remove him from power, are you really holding him accountable? 
I think that is the other thing we are wrestling with. Now, you 
have, I think, articulated it fairly well, that we are trying 
to have a consequential, but limited strike. But does that 
truly hold--I mean, if he is still in power and he is still 
running the country, is he held accountable? How do we truly do 
that?
    And then, lastly, we are rightly concerned about removing 
Assad from power because of the presence of Al Qaeda, because 
of the chaos that exists even now in Syria. Assad does not 
control the entire country. How long will he control all of his 
chemical weapons dumps? And as bad as it is to have Assad in 
charge of them, I think you would agree it would be worse to 
have them scattered to whoever gets there first.
    It is balancing all of that. And the feeling that I think 
some of us have is we are kind of like where we are taking a 
stick and hitting a hornet's nest with no intention whatsoever 
of killing the hornets. You know, we want to try to, I guess, 
teach them a lesson. But going forward, what comes next? Are we 
in a position to hold Assad accountable within all the 
limitations that we have talked about? I guess that is what we 
are concerned about.
    Secretary Kerry. Adam, very good questions, and let me 
answer them in the whole.
    This is not a piecemeal operation. It is not a piecemeal 
approach by the administration where one part is separate and 
being dealt with over here, and another part over here, 
although we are trying to separate the nature of the response 
to the degree that it is possible.
    Now, let me be very specific about what I am saying. With 
respect to the limits of American power, obviously there have 
always been limits, and we haven't always heeded those lessons 
well before some of our most recent excursions. But I would say 
this: That lesson has particularly informed President Obama's 
decision and approach here.
    The President is specifically not asking the Congress to 
empower him to go in and take over Syria's civil war, precisely 
because of those lessons. What the President is doing is making 
an informed decision about what the military can achieve and 
what we as a country need to achieve here, which is enforce a 
prohibition on the use of chemical weapons.
    Now, he has directed the military to come up with a set of 
options as to how you can degrade his ability to deliver those 
weapons and send a sufficient message: Don't do it again. Now, 
we believe, and General Dempsey can testify to this, that he 
has arrived at a targeting concept that can achieve that.
    Mr. Smith. I am sorry. This is something that we tried to 
get in before. They launched these chemical weapons with 
artillery in many instances. And we are not going after the 
chemical weapons stockpiles themselves because that carries a 
whole lot of risk with it. So how exactly, General, are we 
going to degrade his ability to deliver chemical weapons----
    Secretary Kerry. I want the general to speak to that, but I 
also want to answer the other part of your question, because it 
is important to understand it in a context here, because you 
asked a question about isn't the leader going to be left in 
power. Well, while it is not the primary objective of the 
strike, there clearly will be a downstream impact on his 
military capacity. And as everybody here knows, the President 
and the Congress have made a decision to support the opposition 
in certain ways, and that support is growing, and its impact is 
growing, and so there is a separate track whereby pressure will 
continue to be put on the Assad regime in order to do what? To 
bring him to the negotiating table to implement Geneva I.
    Now, some people have said, well, there is no strategy 
here. There is a strategy. There has been a strategy in place 
for a long time, and that is to try to implement Geneva I, 
which was arrived at last year in June of 2012, where Russia 
signed on to a proposal that has a transition governing entity 
that would be created by mutual consent with the parties, with 
full executive authority, that will then set up the structure 
for the new Syria to be decided on by the Syrian people.
    So that is the strategy. Now, how do you get there? I am 
telling everybody here, if Assad can gas his people with 
impunity, you will never get to Geneva, you will never have a 
negotiation if we don't stand up and take that weapon away, and 
this strike is calculated to send him the message you cannot 
use these chemical weapons without enormous cost.
    Mr. Smith. I am sorry, Mr. Secretary. I don't mean to be 
overbearing.
    Secretary Kerry. That is all right.
    Mr. Smith. What if he can kill his people with impunity, 
whether he is using chemical weapons or not; does that not send 
the same lesson?
    Secretary Kerry. Obviously, Adam, obviously. I mean, look, 
is there a difference between 100,000 people being killed by 
artillery and Scuds and napalm and other means? Of course 
there----
    Mr. Smith. That is not the question I am asking here. I am 
asking if the goal is to force him to negotiations, stopping 
him from using chemical weapons is an important piece.
    Secretary Kerry. It is not the goal, it is the collateral 
impact of this is he can't use his chemical weapons, over time, 
with the opposition, his status deteriorates, and he comes to 
believe he has to negotiate. But this strike is not calculated 
to remove him, it is not calculated to be the game changer with 
respect to the whole field, it is calculated to stop him from 
using weapons that we decided in 1925 should not be used in war 
and represent a war crime.
    And I think I should let the general speak as to how this 
is specifically targeted to do that, because I don't want any 
confusion that you are being asked to do something that is 
specifically geared towards getting involved in or taking over 
Syria's civil war. That is not the purpose of this strike. The 
purpose of the strike is limited and targeted. Some people want 
it to be more, but the President has decided that is 
inappropriate. He believes it ought to be targeted to prevent 
the chemical weapons. And I think the general should say why 
that is.
    Mr. Smith. General, just quickly, yield.
    General Dempsey. Well, I will see if this answers your 
question. But, you know, we can't prevent him from using 
chemical weapons again. That is not possible under the current 
construct, and I am not sure it is possible short of him giving 
them up or someone seizing control of them.
    We can deter, and we can degrade. Deter is changing his 
calculus about the cost of using them again, and degrade is 
literally taking away some of the capabilities, but not all, 
that he would use to deliver them. Now, these particular 
weapons were delivered not with artillery actually, but by 
improvised, short-range rockets.
    So there are target packages that address the command and 
control, the decisionmaking apparatus; important to mention not 
to degrade the Syrians' ability to control the weapons and 
guard them, safeguard their security, but rather the command 
and control of those who chose to use them, the means of 
delivery, and some of the other resources that the regime uses 
to protect itself.
    So, I mean, we have got a full range of options, but I will 
also say, importantly, the President has not yet given me the 
final decision on those target packages. We have got a range of 
options.
    Mr. Smith. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. We are now going to open it up for 
members' questions. And I will enforce the 5-minute limit. We 
have just about the full committee here, and everybody has 
important questions to ask. So will you please respect the time 
for everybody equally.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. And I would 
like to start my questioning by reminding this committee and 
the American people that on October the 23rd of 1983, 241 
marines were blown apart at the barracks in Lebanon. And the 
reason I want to start with this is because I want to read one 
paragraph from President Reagan after the bombing. It is in the 
book called ``The American Life: Autobiography of Ronald 
Reagan.''
    ``In the weeks immediately after the bombing, I believed 
the last thing we should do was turn tail and leave. Yet the 
irrationality of Middle Eastern politics forced us to rethink 
our policy. If there would have been some rethinking of policy 
before our men died, we would be a lot better off. If that 
policy had changed towards more of a neutral position and 
neutrality, those 241 Marines would be alive today.''
    I thank Mr. Reagan for having the courage to look at the 
situation and to understand that the Middle East can be a 
jungle. That brings me to this point and my question. I 
represent the Third District of North Carolina, 60,000 retired 
military in the district, Camp Lejeune Marine base, Cherry 
Point Marine Air Station. And in 5 days we received over 415 
telephone calls. We also received over a thousand emails in 
that same period of time. Ninety-seven percent said no to this 
action in Syria. I had even Marines to call from Camp Lejeune, 
did not identify themselves or their ranks, to say, please 
register me as a no in going into Syria.
    So my question to all three of you, how will we determine 
that these strikes are successful? What contingency plans are 
in place if other countries take aggressive action as a result 
of our strikes? Do we really believe that Hezbollah, Iran, 
Russia will simply stand by and watch?
    Those last two questions are very important to me as a 
Representative, but it is also very important to the thousands 
of people in the Third District of North Carolina. Let me 
repeat two of them very quickly. What contingency plans are in 
place if other countries take aggressive action as a result of 
our strikes? Do we believe that Hezbollah, Iran, Russia will 
simply stand by and watch? If you could answer those two 
questions.
    And I have other questions, Mr. Chairman, I would like to 
submit in writing for the record, with a response back in 
writing. I ask unanimous consent.
    The Chairman. Without objection.
    Mr. Jones. If you gentleman could answer those two 
questions, I would be greatly appreciative.
    Secretary Kerry. Go ahead, Marty, you want to talk about 
the deterrence?
    General Dempsey. Yeah, I can talk about the risk. You are 
asking about the risk of retaliation, and specifically you are 
asking about Russia and Iran. And we assess that the risk of 
retaliation, because of the limited nature of this strike, is 
low. I can't drive it to zero. I can tell you that we are 
postured in the region in order to deal with any miscalculation 
or retaliation.
    Mr. Jones. General, very quickly, innocent people will be 
killed. I mean, that is a given in war, I would believe. 
Innocent people in Syria will be killed. Is that an assumption 
that I can assume would be correct?
    General Dempsey. You can make that assumption because war 
is an imperfect science, to be sure. But you can also be sure 
that part of the targeting criteria I have been given by the 
President is to achieve a collateral damage estimate of low, 
which is--I can talk to you in classified setting about what 
that means.
    Mr. Jones. Mr. Secretary of Defense, would you answer the 
two questions? And then I would like the Secretary of State, if 
possible.
    Secretary Hagel. Congressman, first on your comments 
concerning your constituents, as well as General Dempsey and 
mine, the Marines, please don't let them send me to Syria, I 
believe was the paraphrase. First, I just want to remind 
everybody that is not the objective, that is not what is in the 
resolution of authorization, that is not why the President came 
to Congress. It is not about sending Marines to Syria.
    Regarding your questions, as I said in my statement, 
Congressman, there are always risks and consequences to action. 
But I also said there are risks and consequences to no action. 
I believe, I believe as firmly as I am sitting here this 
morning, and I think I have some justification for believing 
this, that if no response from the international community 
occurs to what Assad has most recently done on August 21st, and 
other actions he has taken prior to that, he will do it again. 
We will be back here revisiting this issue at some point. And 
the next time we revisit this, it may well be about direct 
American casualties and the potential security of this country.
    We have planned for, in every possible way, months of 
planning, Congressman, on the contingencies that you talked 
about, the what ifs, what ifs. Where are our assets deployed? 
Are we prepared? What are we anticipating? From the State 
Department security offices we spent days with Secretary 
Kerry's people on anticipating hits on our embassy, our 
consulate, our American interests around the world. There is no 
operation perfect. I can't guarantee anything. But I would 
leave it at that, Congressman. Thanks.
    The Chairman. The gentleman's time has expired.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I have written my questions down because I have really 
thought a lot about every single word in these. And these two 
questions, or a set of questions I am going to ask, are for 
Secretary Kerry.
    In articulating the basis for military action against 
Syria, the President and many in the administration have placed 
great emphasis on the moral and the legal dimensions of the 
issue. I believe you called the attack on civilians a moral 
obscenity, and one of the principal justifications has been the 
alleged violations of the laws of war for use by chemical 
weapons.
    So I have two questions. Would you please define the 
circumstances in which you believe deliberate targeting of 
civilians will lead to an American intervention? Why not in 
every case? Why not in Homs, where thousands of civilians died 
and we did nothing? Is the U.S. or the Obama administration 
committing itself to military action in every case in the 
future where civilians are deliberately targeted in internal 
conflict or only when chemical weapons are used? That is the 
first one.
    And secondly, do you agree enforcement of the chemical 
weapons ban and other violations of international law of war 
must comply with the fundamental framework of the U.N. [United 
Nations] Charter for use of military force between nations? 
Because that charter, which is a duly ratified treaty by the 
United States, prohibits use of armed force against other 
nations except with a U.N. Security Council resolution or where 
imminent national self-defense warrants military action. And 
self-defense, that basis must be imminent. And two permanent 
members are opposed--Russia and the U.K. [United Kingdom]--to 
this force. No one in the administration has argued that the 
United States is under imminent threat. In fact, last night the 
President seemed to say that we didn't have to so worry about 
Assad and his capabilities.
    So can military action be legally justified under the U.N. 
Charter? And is enforcement of international law our 
responsibility even when we are not threatened and when the 
U.N. refuses to authorize force, even when it goes against our 
own law? And do you support vigilante action for other nations 
to enforce international law or just us?
    Secretary Kerry. Terrific questions, and I will do my best 
to try to address them.
    With respect to the deliberate targeting of civilians and 
so forth, I wish it were clear. I really do. As you all know, 
President Clinton wrote in his memoirs that his greatest regret 
in his Presidency was not responding to the slaughter that took 
place in Rwanda. But we did respond in Kosovo and Bosnia, and 
we responded without a U.N. resolution.
    As you know, there has been a developing sort of theory 
that some people attach, we have not adopted it as a Nation, 
nor as an administration, with respect to the right to protect 
under certain circumstances. But NATO [North Atlantic Treaty 
Organization] did make a decision outside of the U.N.--with the 
U.N., U.N. actually did pass a resolution with respect to the 
situation of the civilians in Benghazi and the threat that they 
faced from Qadhafi, and the United States acted at that point 
in time.
    I think that there is no hard and fast rule, but there are 
legal justifications under certain circumstances with respect 
to international treaties such as the international convention 
on weapons of mass destruction.
    Ms. Sanchez. Secretary Kerry, don't you believe----
    Secretary Kerry. The President is not making an argument. 
He is not coming----
    Ms. Sanchez [continuing]. That the U.N. Charter takes more 
into account than a chemical weapons international law?
    Secretary Kerry. Not always, unfortunately. I regret that 
the circumstances we find ourselves in are such that the three 
principal mechanisms for U.N. justification don't ideally fit 
this situation. It is just a reality. The President has 
acknowledged that. The President has nevertheless tried very 
hard to make the U.N. a primary focus of his efforts.
    Ms. Sanchez. Has the President gone to the U.N. for a 
resolution on force?
    Secretary Kerry. Yes, he has gone.
    Ms. Sanchez. Gone to the U.N. for a resolution on force on 
this issue?
    Secretary Kerry. At the very beginning, after this event 
took place, on the 28th, I believe it was around the 28th, 
there was a resolution that our Ambassador and the U.N. 
attempted to table, but we found that the Russians opposed it, 
the Chinese opposed it, and we couldn't move forward. The first 
one was just a general condemnation. Then we tried to get all 
means necessary. That was objected to. So that is when the 
President started to look elsewhere. It was a result of those 
resolutions being refused at the U.N.
    The Chairman. Mr. Secretary, the gentlelady's time has 
expired.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The Chairman. Could you please complete the answer for the 
record?
    Secretary Kerry. Sure. I will be happy to.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Mr. Forbes.
    Mr. Forbes. Gentlemen, sometimes this business comes down 
to making tough choices. Thank you for helping us make those 
tough choices.
    Secretary Kerry, you assured us that we were not going to 
war. But I think most of us sitting on this committee realize 
that if tomorrow a foreign country launches a barrage of 
Tomahawk missiles into Washington, DC, no matter what they 
called that, they have just gone to war with the United States 
of America. And I am afraid that some individuals in Syria may 
have a hard time discerning whether those missiles launched at 
them might constitute war as well.
    But I do agree with you when you say we can't base our 
decision solely on the budget. So I want to take sequestration 
off the table and not even deal with sequestration.
    Secretary Hagel, I want to ask you this. Which do you feel 
is more detrimental to the national defense of the United 
States of America? And I want to give you two choices. Choice 
one, failure to respond with an unbelievably small military 
response against Syria for using chemical weapons against its 
own people; or, choice number two, cutting $587 billion from 
our national defense, planning to cut 2 to 3 carrier strike 
groups, reducing our F-22 fleet to 187 fighters when the Air 
Force says we need 250, destroying 7 of our Navy cruisers, 
which have twice the firepower of the entire British Navy, 
creating a training crisis for our Air Force and a maintenance 
shortfall for our Navy ships, and doing away with the Joint 
Forces Command without any predecisional analysis? If you had 
to pick between those two as to which is more detrimental to 
national defense, would you pick choice number one or choice 
number two?
    Secretary Hagel. Well, Congressman, I hope those won't be 
the choices.
    Mr. Forbes. They were the choices, because choice number 
two is what the administration did outside of sequestration. 
And so I just need you to give me a little perspective. If you 
had to pick one or the other, which would it be, more 
detrimental to the national defense of the country?
    Secretary Hagel. Well, again, I will answer your question, 
but let me just make one comment. I hope the Congress and the 
President will resolve the choice number two----
    Mr. Forbes. That is not relating to sequestration, Mr. 
Secretary.
    Secretary Hagel. Well, it is.
    Mr. Forbes. They were cuts that were made before 
sequestration.
    Secretary Hagel. You are talking about the $487 billion.
    Mr. Forbes. $587 billion.
    Secretary Hagel. That wasn't just the President, that was 
the Congress as well.
    Mr. Forbes. But the President proposed that he started with 
his efficiency. So if you would, I have only got 5 minutes.
    Secretary Hagel. The Congress--the Congress was a partner 
in that.
    Mr. Forbes. I only have 5 minutes, just tell me which one 
is more detrimental.
    Secretary Hagel. Well, for the long-term interests of our 
country, to completely decimate the internal dynamics of our 
military structure and capability is obviously the longer term 
problem.
    Mr. Forbes. So choice number two.
    Secretary Hagel. Yes, but that is not the issue at hand, 
Congressman. That is an interesting theoretical debate.
    Mr. Forbes. Well, it is the issue, and I will come back to 
that.
    Secretary Kerry, you talked about sending a greater message 
of national weakness. Which do you believe sends a greater 
message of national weakness: failure to respond with an 
unbelievably small military response against Syria for using 
chemical weapons against its own people or cutting $587 billion 
out of our national defense, planning to cut two to three 
carrier strike groups, reducing our F-22 fleet, and destroying 
seven Navy cruisers, which have twice the firepower of the 
British Navy. Which one sends the stronger message of national 
weakness?
    Secretary Kerry. Well, those aren't the choices on the 
table as far as I am concerned.
    Mr. Forbes. I know. That is not my question. My question is 
which----
    Secretary Kerry. Well, that is relevant to what we are 
doing here, Congressman. We are trying to figure out whether or 
not we are going to proceed forward with a resolution of 
authority.
    Mr. Forbes. Mr. Secretary----
    Secretary Kerry. Your budget question--this is not a budget 
hearing.
    Mr. Forbes. Mr. Secretary, let me take that back then 
because you are not going to answer my question.
    Secretary Kerry. No, I am going to answer it.
    Mr. Forbes. Chairman Dempsey said this----
    Secretary Kerry. I am going to tell you what I think we 
ought to do.
    Mr. Forbes. I will let you respond in writing.
    [The information referred to was not available at the time 
of printing.]
    Mr. Forbes. Secretary Dempsey said if we need the money we 
will find the money if it is of interest. And my point is we 
have been waiting, Mr. Secretary, I have been waiting for you 
to come back and pound your fist on the table just as strong as 
you are talking about advocating this military strike to say 
why haven't we put that $587 billion back which shouldn't 
impact sequestration? Why are we even talking about cutting two 
to three carrier strike groups? Why have we reduced our F-22s 
down? And I haven't heard that same kind of passion.
    And, Mr. Secretary Kerry, the reason that is relevant is 
because I am hearing from veterans groups, defense industry, 
ordinary citizens who do think that is a valid question for us 
to have been asking. And it comes down to this. This 
administration loves to use the military, want to use it in 
Syria, Libya, resource to Asia to balance that pivot, the 
Afghanistan surge. You just don't want to pay the price it 
takes to have a strong military.
    Secretary Kerry. Congressman, Congressman----
    Mr. Forbes. And my final question, Mr. Secretary, and you 
can answer after that, are you officially withdrawing your 
request for us to take action on a military response 
immediately? And do you want us to delay that response?
    Secretary Kerry. I am not officially asking you to withdraw 
it, no, and I am not asking delay. But I have been informed 
that the President of the United States, while we have been 
sitting here, which I knew was going to take place this 
morning, has completed a conversation with President Hollande 
and with Prime Minister Cameron. I had an earlier conversation 
this morning with Foreign Minister Fabius, and we talked about 
where we are with respect to the Russian proposal. And they 
agreed to work closely together, in consultation with Russia 
and China, to explore the viability of the Russian proposal----
    The Chairman. Mr. Secretary----
    Secretary Kerry [continuing]. And to put all of the Syrian 
CW [chemical weapons] under the control of a verifiable 
destruction enforcement mechanism. And efforts are going to 
begin today to do that.
    Now, I don't know if that affects it, but I am not here to 
ask you, no. I think we need to, as I said in my opening 
statement as forcefully as I can, what has brought us to this 
discussion at the U.N. now is the potential of this force, and 
we don't want to take it off the table. It would be dangerous 
to do that. It would be sucked into something that may not have 
any capacity to be able to be effective.
    And with respect to the budget, Mr. Chairman, a point of 
personal privilege here, please. We are all concerned. I am 
concerned. I am not politics now, I am out of politics. But I 
spent 28 years up here, and I know what is going on. We are all 
concerned about the readiness of our military, and I hear it in 
different places. But everybody knows that this Nation is 
wealthy enough and has the capacity, if Congress will make its 
decision on the budget as a broad basis, to fund what we need 
to fund.
    Mr. Forbes. Mr. Secretary, you voted to cut that $587 
billion.
    With that, Mr. Chairman, I yield.
    Secretary Kerry. No, I voted to put in place a reasonable 
mechanism that would actually wind up with us solving our 
budget and deficit problems. And it was never put in place. 
That is what I voted for.
    The Chairman. Okay. I am going to go back to what I said. I 
am going to enforce the 5 minutes. So if you want a question 
answered, leave enough time for the answer. If you just want to 
make a point, make the point. That is fine. Take the whole 5 
minutes. But I will cut it off at 5 minutes for the next 
person.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Secretary Kerry, we also received in the last 10 minutes 
the news you just made reference to, that efforts, according to 
the President, will begin today at the U.N. and include 
discussion of a potential Security Council resolution on this 
international disarmament proposal. I think there is broad 
support to try to make that happen. I agree with your 
assessment that absent a credible threat it would not have 
happened. I think that is a very good observation.
    You said earlier in your testimony that this proposal has 
to be real and verifiable. What criteria are we going to use to 
evaluate whether this proposal is real and verifiable?
    Secretary Kerry. Well, we are just getting to that process. 
We have been discussing this actually for the last several 
days. Our experts are working on exactly what would be 
required. It is the judgment of the Intelligence Community most 
of the weapons of mass destruction/chemical weapons are in the 
control of the regime, obviously. They have about 1,000 metric 
tons of numerous chemical agents, binary components, including 
finished sulfur, mustard, binary components for sarin and VX. 
Most of that is in the form of unmixed binary components, 
probably stored mostly in tanks. But they also possess sarin-
filled munitions and other things we can't go into here. We are 
going to have to be able to know that it can all be accounted 
for and actually moved under the circumstances that exist in 
Syria to a place where they can be taken out and destroyed.
    Mr. Andrews. Could any of the three of you describe the 
practical issues involving the safety of the personnel who 
would be performing the tasks that Secretary Kerry just talked 
about, be they international----
    Secretary Kerry. That is a huge issue.
    Mr. Andrews. What is necessary to take place among the 
warring factions in Syria for that to be a viable and practical 
option?
    Secretary Kerry. Well, the one benefit of the fact that 
they have been trying to deny that they control, that the 
regime controls most of these weapons, and as the war has 
progressed and opposition has taken over one particular 
territory or another, we know they have moved these munitions 
into their more safely controlled area. That is a virtue of the 
way they have tried to manage their weapons program.
    Mr. Andrews. Right.
    Secretary Kerry. So that is now in regime-controlled 
territory. Therefore, it is our belief--and this is all 
initial, I don't want to go into a lot of detail because it is 
so initial----
    Mr. Andrews. Right.
    Secretary Kerry [continuing]. That the majority, if not all 
of it, is in area controlled by the Assad forces, and therefore 
if they are going to make good on this they ought to be able to 
make good on the protection of the process itself. Now, these 
are things that are going to have to be--these are the 
modalities that are all going to have to be worked out, 
negotiated in very short order because the President, 
appropriately, is not going to allow some nickel and diming 
long process to draw this out while he continues to prosecute--
--
    Mr. Andrews. I think it is also important to put this 
diplomatic discussion in context. This is not a proposal that 
just sort of spontaneously combusted. I know that you and your 
predecessor have tried for 2\1/2\ years to enter into good 
faith negotiations with the Syrians, both directly, through 
their allies and through international organizations. And could 
you just briefly summarize that 2\1/2\-year effort that has 
brought us to this point?
    Secretary Kerry. Well, the Assad regime has until now 
denied that they even have the weapons. So there has been no 
discussion fundamentally about how you do it, though it has 
been suggested and talked about to some degree. And as I said, 
I had some conversations about this with my counterpart from 
Russia last week. President Putin raised the issue with 
President Obama at St. Petersburg. President Obama directed us 
to try to continue to talk and see if it is possible.
    So it is not something that, you know, suddenly emerged, 
though it did publicly. But it cannot be allowed to be a delay. 
And the only reason it is on the table today, the only reason 
the Assad regime has even publicly apparently consented to the 
Russians that they would be willing to do something, having 
never admitted they had these weapons, is because this threat 
of force is in front of them.
    Mr. Andrews. I think we all wish you great success in 
achieving a successful resolution of this effort.
    And I yield back.
    The Chairman. Mr. Miller.
    Mr. Miller. Secretary Kerry, you just said again there 
should be no delay. Is that correct?
    Secretary Kerry. Well, I mean there has to be a reasonable 
period to try to work this out, obviously. You have got to see 
whether or not this has any meat to it. And if it does have 
meat, I think that is important.
    Mr. Miller. So, again, following up on Mr. Forbes'----
    Secretary Kerry. The Senate has already delayed.
    Mr. Miller. Because they don't have the votes, Mr. 
Secretary. That is why they delayed. You know that.
    Secretary Kerry. Actually, no, I don't.
    Mr. Miller. Well, I do.
    Secretary Kerry. Well, I am glad you know something. And I 
think this is not a, you know, this should not be a political 
discussion about whether there are votes or not.
    Mr. Miller. I am not being political, Mr. Secretary. It is 
the truth. They don't have the votes. Read any newspaper in 
this country and you will find that out.
    Secretary Kerry. As I said to you, I don't know that.
    Mr. Miller. Should the House delay or should the House move 
forward?
    Secretary Kerry. I believe that the Senate has made----
    Mr. Miller. This is the House of Representatives, not the 
Senate, sir.
    Secretary Kerry. I understand. Look, do you want to play 
politics here or do you want to get a policy in place? The 
policy that can be put in place is to try to get this 
particular option of getting control of chemical weapons in 
place. Now, if you want to undermine that, then play the 
politics.
    Mr. Miller. Okay. How about this, Mr. Secretary----
    Secretary Kerry. If you want it to work, then I am asking 
you to be serious about how we got here.
    Mr. Miller. Explain to me, Mr. Secretary--reclaiming my 
time, sir.
    Mr. Chairman, would you please ask the witnesses to limit 
their answers to the questions that are asked?
    Mr. Secretary, would you please explain what an incredibly 
small strike is?
    Secretary Kerry. It is not Iraq, it is not Iran, it is not 
a year's war. What I was doing was trying to point out to 
people that we are engaged in a strike which we have again and 
again, and if you want to take my comments in their entirety, I 
have said this will be meaningful, it will be serious, the 
Assad regime will feel it because it will degrade their 
military capacity. But compared to Iraq, Kosovo, Libya, it is 
small. It is not any of those things. That doesn't mean that it 
would be anything less than what I have suggested previously, 
and the military has suggested that Assad will know. We don't 
do pin pricks. The President has said that, and we have said 
that. We will degrade, and I believe we will deter. But it is 
not Iraq, Afghanistan. And compared to them, it is small.
    Mr. Miller. Has Assad directly threatened the United States 
of America?
    Secretary Kerry. Chemical weapons directly threaten the 
United States of America. The instability of the Middle East 
directly----
    Mr. Miller. Mr. Secretary, are we going to strike North 
Korea?
    Secretary Kerry. Not at the current moment, obviously.
    Mr. Miller. They have a larger stockpile than Syria has.
    Secretary Kerry. I beg your pardon?
    Mr. Miller. Do they not have a larger stockpile than Syria?
    Secretary Kerry. They have one of the largest stockpiles in 
the world. And we are currently engaged in a very serious 
effort, which I think you are aware of, working with the 
Chinese. I went, at the President's direction----
    Mr. Miller. I appreciate--let me----
    Secretary Kerry. But you don't really want answers, do you?
    Mr. Miller. I am limited on my time, but you are not, sir.
    Secretary Kerry. I am trying to give you an answer.
    Mr. Miller. This is not the Senate. We do not filibuster 
here.
    Secretary Kerry. I am trying to give you an answer.
    Mr. Miller. General, has Assad attacked any of our allies?
    General Dempsey. Not to my knowledge.
    Mr. Miller. To anybody at this desk, whose side are we on?
    Secretary Kerry. With respect to?
    Mr. Miller. Syria, Mr. Secretary.
    Secretary Kerry. We are supporting the opposition.
    Mr. Miller. Which opposition?
    Secretary Kerry. We are supporting the moderate opposition 
of General Idris and the SMC [Supreme Military Council] and of 
President Jarba and the Syrian opposition.
    Mr. Miller. And I believe you just referred to the fact 
that this Congress supported doing things with the Syrian 
opposition. Is that correct?
    Secretary Kerry. We are helping the Syrian opposition, and 
the President has made that clear.
    Mr. Miller. You said this Congress voted to support that. 
Is that correct?
    Secretary Kerry. I said Congress has authorized us to do 
some things to support them.
    Mr. Miller. Let me make the record perfectly clear. I voted 
no. I had a vote, and I voted no.
    Secretary Kerry. I am happy to have the record be made 
clear, Congressman.
    Mr. Miller. Thank you.
    Yield back.
    The Chairman. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you to all of you for being here.
    I know you have made several attempts at this, but I am 
wondering, because the American people are interested in 
watching, could you articulate further and is there anything 
that you haven't said that would better suggest why American 
interests are at stake? What else can you tell the American 
people that perhaps you feel you haven't had time to do?
    Secretary Kerry. Well, I think in my opening statement I 
laid it out, so I am very grateful for the time to have been 
able to do that, and I appreciate the indulgence of the 
committee. I don't want to repeat all of it. But there is no 
question in our mind that if the United States of America 
cannot stand up and make real what we have said with respect to 
the prohibition on the use of chemical weapons against innocent 
civilians, that we then open Pandora's box for its use not only 
by Assad in the days ahead, but others who will begin to use 
it, as General Dempsey has said, as an everyday tool. That will 
have been an enormous breach of nearly 100 years of the belief 
these weapons shouldn't be used in that form or in any form 
ever. And it is because of their indiscriminateness. Artillery 
is targeted, it kills, yes. But gas has the ability in much 
greater numbers to kill many more people and be much more 
dangerous and we need to stand against it.
    We also know that our friends in Israel, in Jordan, in 
Lebanon, in Turkey, in Iraq are all deeply affected by the 
potential of this weapon gaining greater usage. And the 
instability that will be bred by the unwillingness of the 
United States to stand up against this will have repercussions 
as to who some people choose to support in this fight in Syria 
and could in fact significantly increase the amount of support 
going to the terrorists, to the worst elements, because they 
will be viewed then as the ones most committed to getting rid 
of Assad.
    Mrs. Davis. Mr. Secretary, of course, and to the others, I 
mean there have been times when we have not acted in that way. 
People have wondered whether had the President not mentioned or 
spoke to a red line would we still be in this place today.
    Secretary Kerry. Well, Congresswoman, thank you for the 
question. You know, there has been a lot that has tried to be 
made politically of the President calling it a red line. But 
the President didn't create this red line. This is a red line 
that a Republican or Democrat President would--or should 
enforce. And through years of effort, Republican and Democrat 
administrations alike, without regard to politics, have helped 
to advance the effort to get the world rid of weapons of mass 
destruction, chemical, biological, and nuclear.
    And this is one of those three great weapons that the world 
has decided stand apart from other weapons. Not that we don't 
want to work in other ways to reduce the number of civilians 
killed, but this particular weapon has a special meaning in the 
context of war and the threats we face today.
    Mrs. Davis. Thank you. I wanted to just follow up quickly, 
because I think everybody here is very concerned, and we want 
to move forward with what we have heard possibly is progress in 
the discussions that are coming up, certainly as it relates to 
Russia and other interested parties in this conflict.
    I am wondering if, short of backing off of this, is there a 
resolution that you think could be entertained that would 
enumerate the what ifs, if in fact we are not able to move 
forward and get that kind of resolution? Is there anything, any 
way that we ought to be speaking out on the options that we 
have if that does not occur? And I would include cyber within 
that discussion as well. What would it look like if the 
Congress were to have a resolution that would basically say, in 
the absence of, this is where we go at this point in time? I 
know the Senate is looking at that.
    Secretary Kerry. Sure. Congresswoman, I have no question, 
having great faith in the ability of Congress to come together 
around the wordsmithing necessary to come up with a resolution, 
yes. My answer would be of course there is the ability to be 
able to mold a resolution that has contingencies or places an 
appropriate approach to this. And that is within the purview of 
the Congress. And we are prepared to work with Congress very 
closely to achieve that.
    I might just, in answer to the Congressman earlier about 
the question of North Korea, you know, the real difference here 
is that Syria has used these weapons, and they have done so 
after being repeatedly warned not to. So that is again what 
makes this even more compelling.
    The Chairman. The gentlelady's time has expired.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, Chairman McKeon, for 
your leadership promoting peace through strength.
    And I appreciate the panel being here today. I am a 31-year 
veteran of the Army National Guard Reserves, but I am 
particularly grateful to be the dad of four sons currently 
serving in the military of the United States. That is why I am 
so concerned about the confused policies of this 
administration, the ever-changing policies, the ambivalence, 
the uncertain red lines. The administration I think is giving a 
projection of weakness that puts the American people at risk. 
Additionally, the White House claimed chemical warfare by Syria 
on April the 25th, not August, April 25th, but failed to act.
    Secretary Hagel, will a military strike by the United 
States against Syria cause a dramatic increase of refugees 
seeking asylum in Jordan? Could a sudden increase in the number 
of refugees threaten the Government of Jordan? Do we have plans 
to help Jordan absorb the refugees?
    Secretary Hagel. Congressman, thank you for your service, 
and obviously your sons' service, which we have had that 
discussion previously.
    First, there are now more than 2 million refugees that have 
fled Syria. So that is a real issue now. Half a million in 
Jordan now, Turkey, Iraq. So we have got a huge problem now.
    As to your specific question, would a limited, defined-
scope attack on Assad's chemical weapons capabilities produce 
more refugees? We have looked at the different contingencies, 
reactions, possibilities of the kind of strikes that we are 
talking about, the options that we have given to the President. 
I think it is very unlikely that you would see any increase in 
refugees because of the nature of the kinds of very precise 
strikes that we are talking about.
    Mr. Wilson. Well, again, the stability of Jordan is crucial 
to America and our allies.
    Secretary Hagel. Yes.
    Mr. Wilson. And I certainly hope planning is in place.
    Additionally, I understand the President has said that the 
objective is not regime change, but he has also said no boots 
on the ground. However, there are always unforeseen 
circumstances, such as if Assad were to lose power wouldn't it 
be necessary to place troops there to secure the chemical 
weapons?
    Secretary Hagel. Well, that is another contingency that we 
have obviously spent a lot of time looking at. That is one of 
the reasons, as was noted here earlier this morning, that in 
that group of options the strike of a chemical weapons 
munitions facility would be off limits for obvious reasons.
    As to your question, what would happen if Assad's 
government goes down in the eventuality of a loss of control of 
those chemical weapons facilities, we are working, and have 
been working, coordinating very closely with all of Syria's 
neighbors on this particular issue, Turkey, Jordan, Iraq, 
Israel, Saudi Arabia. And, yes, we are always looking at those 
options as to how we would respond, what we would do, what we 
would have to do.
    Secretary Kerry. Congressman, could I just add to that that 
this is specifically geared not to raise the risk of losing 
control over those. And secondly, there will be no boots on the 
ground in this operation. There should be no confusion. So if 
something occurs down the road, the President would have to 
come back to you. He would have to come back.
    Mr. Wilson. With so many different competing groups, and we 
know Al Qaeda is involved, I don't see how it could be 
guaranteed that there wouldn't be a real potential for 
terrorists, international terrorists to achieve chemical 
weapons.
    Another concern I have, the limited strike, wouldn't Russia 
be able to immediately resupply the Syrian regime? And 
additionally, we now know that the Russian fleet in the 
Mediterranean is the largest since the Soviet dissolution. Is 
there a potential of conflict with the Russian Federation?
    General Dempsey. Yeah. In the time remaining, there is 
always the possibility that Syria's allies would seek to 
replenish. But it would take longer than they assess at this 
point. And in terms of the fleet in the eastern Med, they have 
been building that up even before this recent spike in 
activity. And their fleet there at this point is mostly amphibs 
and intel ships.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you.
    General, welcome to the House of Representatives circa 
2013. We don't filibuster around here, but we do have a 
different name for it. But I will try to be quick here.
    It was actually Charles W. Warner and not Mark Twain who 
said that everyone talks about the weather, but no one does 
anything about it. And it seems that we are in that position on 
chemical weapons, where we are talking about what we ought do 
about chemical weapons, but we are, at least in the House and 
perhaps in the Senate, not willing to do much, if anything 
about it, or we are trying to explore what to do about it.
    And I think what I want to hear first from Secretary Kerry 
is kind of what we are going to do about this Russian 
initiative if it goes to the U.N. Security Council. Is it going 
to focus, is our position going to focus on the chemical 
weapons only, getting those under control, and leaving 
production capability within Syrian hands, command and control 
in Syrian hands? Or are we going to try to broaden this a 
little bit more than just focusing on chemical weapons? Are we 
going to do something about that?
    Secretary Kerry. We are going to do something about it. And 
that is why I am very careful to make certain that I don't 
overhype or present what is possible from it because we don't 
know yet. We need to explore this. We are looking at it on our 
side. The Russians are supposed to make a proposal to us. I 
will actually be talking to Secretary Lavrov after I leave 
here. And we are talking about it at the State Department and 
the White House to determine exactly what will produce the 
result we want. What guarantees that you have got the weapons, 
you have got all the weapons, that they are accountable, that 
they are out, and that you can manage this under the 
circumstances that exist there.
    Now, those are all the things that have to be gamed and 
vetted in full, and I don't want to make any predeterminations 
about that that could falsely raise expectations or, you know, 
leave something out that ought to be in there. I just think we 
need to let this fill out a little bit, it needs a little time.
    Mr. Larsen. My point is it gets beyond the actual weapons 
themselves because it was just apparently today that Syria, or 
yesterday----
    Secretary Kerry. Well, we are currently talking about more 
than just that.
    Mr. Larsen. Yeah, exactly, I just want to make sure we are 
talking about production capability, and perhaps command and 
control, disaggregating that organization there.
    For General Dempsey, Mr. Wilson talked about the 
humanitarian refugee crisis, how that might be added to from a 
strike. But can you talk a little bit about what your 
assessment, or to the extent you can here, are planning with 
regards to retaliation or response from Iran or Hezbollah as a 
result of strikes?
    General Dempsey. Well, without being specific, as you know, 
we have mutual defense agreements with Turkey, through NATO, 
with Jordan directly, and of course with Israel. And we have 
got forces and personnel who at times like this establish 
crisis coordination mechanisms. We have got personnel in those 
three countries doing exactly that.
    We have also, both because of the current tension with 
Syria, but also the fact that the 9/11 anniversary will be here 
tomorrow, we have also got forces at heightened states of alert 
and readiness throughout the region.
    Mr. Larsen. You know what, that is good enough for me for 
now. Thanks. Yield back.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I have one question 
for Secretary Hagel and two for Secretary Kerry.
    Secretary Hagel, in my congressional district is Wright-
Patterson Air Force Base, where as a result of the President's 
sequestration, which I opposed, over 12,000 people were 
furloughed. I have met with some of those people. They have 
difficulty making house payments, support for their children, 
car payments. They were concerned about their finances.
    With the President's sequestration, basically they were 
told that the Department of Defense did not have enough money 
to pay them. And yet now the Department of Defense is telling 
the American public that it has enough money to take us into 
this conflict in Syria. How do you explain that to those people 
who lost wages and are facing the prospect of losing wages 
again in 2014 due to the President's sequestration?
    Secretary Hagel. Well, first, I have made my position known 
very clearly on sequestration, and I have restated it here, so 
I don't think I need to address that again. It is 
irresponsible. It produces exactly what happened on furloughs. 
And the decisions we are having to make now we will have to 
continue to make if sequestration continues as it is the law of 
the land, because the Congress and the President agreed to that 
as a mechanism.
    That said, to your specific point, as you also know, that 
we took 5 of those previously announced furlough days back, 
because of really focusing on where we could find the money to 
essentially improve our operations. We took that money out of--
--
    Mr. Turner. But, Mr. Secretary, you understand that they 
don't understand how it is that you would not have enough money 
to pay them, but yet you have enough money to take us into a 
conflict with Syria.
    Secretary Hagel. Well, I am going to get, if you allow me 
to get to the second part of the answer. It is important 
everybody understand that issue about the furlough. So we took 
5 of those furlough days back because through a lot of very 
astute management--and robbing from our future readiness, by 
the way, to get that.
    Now, your question. If in fact there is a strike in Syria, 
it is now the middle of September. We go into another fiscal 
year in about 2 weeks. So a significant amount of the cost of 
that strike, obviously anything that goes beyond October 1st 
would be in fiscal year 2014.
    Mr. Turner. Which currently is subject to sequestration.
    Secretary Hagel. I am sorry?
    Mr. Turner. Which currently is subject to sequestration.
    Secretary Hagel. Well, everything is subject to 
sequestration. But you asked a specific question about 
furloughs----
    Mr. Turner. You said you are going to take it out of next 
year. But again, to say to those people who are not getting 
paid and having their pay reduced, you know, they are looking 
at sequestration stopping in 2014 because the President has no 
proposal on the table, no leadership whatsoever on----
    Secretary Hagel. Well, that is not true. He does have a 
proposal on the table, and I introduced it. But if you want to 
get into the budget debate about that we can. But he does have 
a proposal on the table.
    I would also answer your question this way. The national 
security interests probably trump budgets. That is up to the 
Congress to decide that. I think that is important. No one 
anticipated this. We were trying to plan as best we could to 
take down another $32 billion in the fiscal year that we are 
still in, anticipating taking another $52 billion next fiscal 
year.
    Mr. Turner. Secretary Hagel, thank you. I don't think 
anybody quite understands your answer, but I appreciate it. 
Secretary Kerry----
    Secretary Hagel. Glad to write it out for you, Congressman.
    Mr. Turner. Thank you. That I would appreciate.
    [The information referred to was not available at the time 
of printing.]
    Mr. Turner. You keep citing the Syria Accountability and 
Lebanese Sovereignty Restoration Act of 2003. You did in your 
opening comments, it is in the President's proposal for 
military action. Most of the people in this room weren't in 
Congress in 2003. This act was about Syria occupying Lebanese 
territory. It was about Iraq, support for terrorism, and 
weapons of mass destruction. But it was a sanctions bill. It 
wasn't authorization for military action. But interestingly 
enough, it included a provision requiring that the State 
Department notify Congress every year about where Syria is on 
weapons of mass destruction. Here is the report that the State 
Department delivered July 9th. I am going to ask this to be 
entered in the record.
    [The information referred to can be found in the Appendix 
on page 81.]
    Mr. Turner. It includes this statement: ``Our Intelligence 
Community has assessed with varying degrees of confidence that 
the Syrian regime has used these weapons''--meaning chemical 
weapons--``on a small scale in Syria, specifically the chemical 
agent sarin.'' This was July, so this must have been sometime 
in June the State Department was concluding this. We know that 
allegedly Saddam Hussein used chemical weapons previously on 
the Kurds. You have said there is a century-old standard, that 
we must take military action or there will be, you know, 
rampant use of chemical weapons. Clearly, there have been 
chemical weapons that have been used during that century-old 
standard that you have said was in place, but yet no military 
action occurred. Why is this different?
    Secretary Kerry. Well, it is very different, and it is a 
good question. It is different because, first of all, the 
President was not racing to try to use a military action. But 
he----
    The Chairman. Mr. Secretary, would you please answer that 
for the record? His time has expired.
    Secretary Kerry. Yes, sir. Absolutely, Mr. Chairman.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman, for holding this 
hearing.
    And thank you, Secretary Kerry, Secretary Hagel, and 
General Dempsey, for your continued efforts to inform Congress 
on the current situation in Syria. We all do appreciate it.
    I am supportive of limited military intervention against 
Syria. I am deeply concerned that a lack of a U.S. response has 
profound impacts not only to countries in the Middle East, but 
also to our allies in other regions of the world.
    Secretary Kerry, if Congress fails to act on authorizing 
some level of military force, what impact do you see with our 
allies in other regions of the world? And in particular I am 
concerned about the Asia-Pacific area.
    Secretary Kerry. Well, I know for a fact, Congresswoman--
thank you, and thank you very much for the support for the 
President's proposal--we are very, very concerned that with 
respect to our current efforts to deal with Iran, the President 
has made it clear that while he doesn't ever want--his first 
preference is a diplomatic solution. But if he can't get a 
diplomatic solution, and we cannot stop the march towards a 
nuclear weapon, the President has made it clear that he is 
prepared to do what is necessary to stop them.
    That word, that promise, which is critical, would be at 
risk if this promise is put at risk because the Congress 
doesn't support it. Now, as I said earlier, this is not the 
President's sole statement. This is something that people have 
adopted over a period of time.
    But, you know, this isn't anything different, frankly, 
colleagues, from the way things work in Congress. You know, 
when I was here your word was everything. If you gave your word 
to somebody that you would be with them, that was enough. That 
is the way you operated. And if somebody broke that, you would 
never trust them again. You wouldn't use them as your 
cosponsor, or you wouldn't work with them on the bill. That is 
critical.
    And that is just the same in international relations. Our 
friends in the region, Israel, the Jordanians, the Lebanese, 
and others who are all at risk from what is happening there, 
are looking to see whether or not we will stand behind them, 
our values, our interests, and the words we have pronounced 
with respect to all of those three. And that is what is at 
stake here.
    Ms. Bordallo. Thank you. I also, you know, I am heartened 
to see developments in working out a possible solution with 
Russia that would entail removing chemical weapons from Syria. 
If it depends on honesty, I am not so sure this proposal would 
ever materialize. And I do realize, Mr. Secretaries and General 
Dempsey, that we certainly, the effects if we don't go through 
with something here, is going to be devastating to our country 
and our Nation. Our image throughout the world will--I can just 
imagine how they are looking at us already as we are debating 
this issue. So, again, I just want to say that I am standing 
behind the President's solution to this matter, whatever comes 
out, whether it is the Russian proposal or if we go ahead with 
the Obama proposal. And I thank you very much.
    Secretary Kerry. Thank you very much, Congresswoman. Thank 
you.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Secretary Hagel, I was going to ask if you thought that the 
sequester cuts and the other cuts were degrading our military 
strength, but I think you already gave that answer. It is 
decimating the internal structure of our military. Is that 
correct?
    Secretary Hagel. Congressman, I have said that many times, 
that you can't have the kind of deep, abrupt cuts that we are 
experiencing and continue to have those, with the uncertainty 
of planning, without having an effect on our readiness and our 
future capabilities, yes.
    Mr. Scott. I agree with you. And therefore it is a threat 
to our national security.
    Secretary Hagel. Yes, it is.
    Mr. Scott. Thank you. I have listened, and, General 
Dempsey, I know you indicated that the threat to our national 
security was essentially that if we don't stop him he will do 
it again and that others may follow suit. Is that what you 
believe the threat to our national security is?
    General Dempsey. Yes. Generally speaking, I mean to the 
other--to the Congressman, what is different this time? It is 
the scope, the scale really of the use, the use of it to clear 
a neighborhood, which indicates that it has gone from being a 
small-scale use that was used to terrorize to a large-scale use 
that is now indiscriminate. And if that becomes a global norm, 
I think we are at great risk.
    Mr. Scott. I guess I respectfully disagree with that 
assessment, that that is a threat to national security. But if 
he has 1,000 metric tons, and, Secretary Kerry, that is the 
number that you just said a minute ago, that would be 2.2 
million pounds. Is that correct?
    General Dempsey. Well, I am actually an English major, but 
I will take your word for that.
    Mr. Scott. It is 2.2 million pounds. And if he had 
delivered 500 pounds 20 times, and he has not delivered that 
much, that would be 10,000 pounds of 2.2 million potential 
pounds of chemical weapons. I mean, some of us have legitimate 
concerns. I mean, only a small fraction of what he has has been 
used. And my concern, as I hear about a limited military 
strike, is I go back to when the President said that Assad must 
go in 2011. We have heard the administration talk about the 
need to move him out. We have heard them talking about changing 
the ground game. Now, these comments have been made in the past 
prior to this August.
    I guess my concern now is that we are sitting here talking 
about going to war--some would say it is not a war, I believe 
it is--most of the time when a leader decides to go to war they 
use a doctrine and they follow certain principles on whether or 
not it is or is not justified. Colin Powell's doctrine had 
seven principles. Were there clear and obtainable objectives? 
Have risk and cost been fully analyzed? Have all other policy 
means been fully exhausted? Is there a plausible exit strategy? 
Have the consequences been fully considered? Is the action 
supported by the American people? Do we have broad 
international support?
    Secretary Kerry, my question for you as a representative of 
the administration is would you list for us the principles of 
the doctrine that President Obama uses in making a decision 
whether or not to go to war?
    Secretary Kerry. Well, how much time do I have?
    The Chairman. One minute, 35 seconds.
    Secretary Kerry. I think the President has great respect 
for Colin Powell. And so do I. And I was always impressed by 
the principles that he laid out. But I found that not every 
single situation, unfortunately, always lends itself to that. 
There are occasions where the President has to make a decision 
that may or may not have broad support or may not have 
exhausted all the remedies simply because of the timeframe. I 
don't think that is the situation. The President is going 
through the process of the U.N. He is trying to build 
international support. We are reaching out. We have reached 
out----
    Mr. Scott. Secretary Kerry, respectfully, I am down to 
about 45 seconds. But I would like to know the principles----
    Secretary Kerry. Well, I would be happy--you know what I 
would do, is I will submit to you within 24 hours in writing so 
you have a chance to weigh that properly. Because I don't want 
to do it in 30 seconds.
    [The information referred to was not available at the time 
of printing.]
    Mr. Scott. That would be perfect. I would just appreciate 
the principles under which the President uses with the decision 
to go or not to go to war.
    And with that, Mr. Speaker, I will yield the remainder of 
my time.
    Gentlemen, thanks for being here.
    Secretary Kerry. Thank you, sir.
    The Chairman. Thank you very much.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Secretary Hagel, just quickly for the record, the budget 
that was submitted back in February by the White House for 
fiscal year 2014 incorporated a turn-off of sequester. Isn't 
that correct? I mean it proposed again turning off sequester 
for 2014 by finding other ways to reduce the deficit.
    Secretary Hagel. It was the President's budget for 2014----
    Mr. Courtney. Correct.
    Secretary Hagel [continuing]. That is right, that did not 
include sequester. That is right.
    Mr. Courtney. Sequester. Thank you. I just wanted to at 
least get that out clearly in the record.
    Secretary Hagel. Yes. Thank you.
    Mr. Courtney. Thank you.
    Chairman McKeon has over the last year and a half had a 
number of hearings on Syria. General Dempsey, you have attended 
a number of those, as well as some of your colleagues from 
Central Command. And in every instance you have been very, I 
think, candid about the downside risk of almost every option 
that was posited in terms of a military response to Syria. And 
when Secretary Kerry was sort of laying out his concerns about 
whether or not a U.N. mechanism to take control of the chemical 
weapons was really, you know, it has got a lot of practical 
issues, I mean, frankly, you have been also very clear about 
the practical concerns about military force in terms of control 
of the chemical stockpiles. I mean, you wrote a letter on July 
19th, just a couple months ago, to us and Senator Levin, where 
again you laid out the different options for military force in 
Syria. And in terms of control of chemical weapons, and even in 
the context of a limited strike, and I am just quoting from 
your letter here on the efficacy of a limited strike, ``Over 
time the impact would be the significant degradation of regime 
capabilities and an increase in regime desertions.''
    You know, again, a lot of us read this stuff, you know, and 
I am sure in the public sometimes there is skepticism, but your 
warnings I think for a lot of us have been taken to heart. And 
what I think a lot of us struggle with is how can a policy rely 
on the Assad military to secure chemical stockpiles at the same 
time we are bombing that army? And again, you addressed this in 
the past, and a lot of us are trying to figure out what has 
changed here to give us that confidence level that we can count 
on the Assad regime to continue to control these stockpiles.
    General Dempsey. Well, without getting into the targeting, 
as I tried to articulate earlier, we would, in our targeting, 
related to chemical weapons, we would make sure of two things: 
One, that we didn't create a chemical hazard ourselves; and, 
secondly, that we wouldn't degrade the ability of the regime to 
secure it. Rather, we would seek to degrade the regime's 
ability to use it.
    As far as the removal of chemical weapons, you know, our 
assumption would be, in this new proposal, it would be a 
permissive environment in the sense that the regime would be 
willing to do that. So we wouldn't have to fundamentally fight 
our way in to seize control of chemical weapons.
    Mr. Courtney. So which is, in my opinion, a much more 
practical guarantee than, again, in the context of military 
force being applied. Again looking at your letter in July 
regarding the option of controlling chemical weapons, you know, 
you stated, ``Our inability to fully control Syria's storage 
and delivery systems could allow extremists to gain better 
access.'' Again, these are spread out over different sites, 
dozens, from what we have been able to sort of hear in an 
unclassified setting.
    How do we have any confidence level about desertions or 
that the Nusra Front or others are going to overwhelm some 
installation with a lieutenant or a captain. I mean, again, 
that is where, I think, in my district--which, by the way, has 
the largest military installation in New England, as Senator 
Kerry knows, in southeastern Connecticut--the wall of 
skepticism is really focused on these very practical issues 
about the downside risk of trying to control these stockpiles 
in a kinetic military environment. Again, I think a U.N.-
sponsored mechanism is something that is going to raise 
people's comfort level infinitely compared to use of military 
force.
    General Dempsey. Just in response, the mission I have been 
given, the targets I have been asked to prepare, and the scope 
of the operation would not tip the balance in favor of the 
opposition and therefore create some of the uncertainty you are 
describing. It would be much more limited than that. Which, by 
the way, some have criticized. But the mission I have been 
given is limited, focused, and significant, not symbolic, but 
wouldn't be intended to tip the balance here, and therefore the 
risk of loss of control of the stockpile is low.
    The Chairman. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. I appreciate this 
very much.
    And I realize that, constitutionally, we have, as Congress, 
the power to declare war, but not to make war. There is a 
specific difference in the use of those two infinitives and why 
they happen to be there. So let me ask you a question which I 
think may have been asked earlier but when I was not here to 
hear the answer, and if you can redo that in, like, 30 seconds, 
I would be very appreciative of you redoing that particular 
answer if it was not fully vetted.
    We have talked about the norm of chemical weapons since the 
treaty in the 1920s, but the norm is that has been repeatedly 
violated and chemical weapons have been used in conflicts of 
which the United States has not been involved repeatedly 
throughout history. I am an old history teacher. I would just 
like you to simply say in 30 seconds or less how this is 
different than any of the other times in which chemical weapons 
have been used, involved, and the United States did not 
respond. Perhaps also saying, because you have said that 
chemical weapons have been used earlier in Syria, how this 
particular event is different from those other areas. Let me do 
that quickly, and if you can do it in 30 seconds, somebody, I 
would be appreciative of that.
    Secretary Kerry. I think it is different because of the 
strategic interests of the United States in the region, because 
of our allies in the region, because of the threat to Israel, 
because of the threat to Jordan, the instability of Jordan, the 
stability of the region to our national security interests, and 
I think it is different because of the fact that warnings have 
been given repeatedly and have not been heeded. And I think 
that changes the equation.
    Mr. Bishop. Okay. I will accept, I don't know if I buy 
that, but I will accept that as a decent answer to the 
question. Let me try the other one then. This country bombed 
Libya without congressional approval. Now we are wanting 
congressional approval before we bomb Syria. Can you just tell 
me, not as far as our allies are concerned, but, domestically, 
what is the difference for us domestically for doing it then 
and not doing it now?
    Secretary Kerry. There is a very big difference. In that 
situation, the Gulf States had made statements, the Arab League 
had made statements, NATO had made statements, and there was an 
urgency, an absolute urgency to moving because of the threat of 
Qadhafi that he would butcher like dogs the people of Benghazi. 
And there was a sense of urgency as a result on a humanitarian 
basis to try to save those lives.
    In this situation there is, as I said, a pattern of 
repeated warnings, of escalating use, and of a clarity of the 
fact that we have strategic interests. You know, it is not 
insignificant----
    Mr. Bishop. All right. Let me--I don't want to be rude, but 
I want other people to ask questions. So what you are telling 
me is domestically there may not be a difference, but it is on 
the external circumstances for which each situation required 
that there was a difference between all of those.
    Secretary Kerry. And the national security stakes for the 
United States and our allies.
    Mr. Bishop. Okay. One of the things for which I have a 
reason concern, I was not here when the last resolution of 
force was voted, and some of you were, I was not here. But I 
was amazed at what I think is the abuse of that system in 
providing political cover, one for another. You could get some 
political cover if Congress were to support this, but Congress 
could also get political cover by simply saying, go ahead, use 
your military, and then I will reserve till later when I 
appreciate or approve of how you use that.
    One of the things that a resolution of force does not do is 
allow Congress to actually commit itself to a fully supportive 
nature of any kind of resolution, of any kind of use of force 
that may come on later on, which is another reason why I think 
there is a difference between to make war and to declare war. 
And it is a key and significant difference.
    I also would like, one last thing in the last minute that I 
have here, using the military is great. Paying for it would 
actually be even better. I would hope the administration would 
put pressure on the Senate, because the House has already 
passed an appropriation bill for our military. You use the same 
kind of vigor in getting the Senate to actually pass an 
appropriation bill for our military as you are asking us for a 
resolution of force to use our military.
    With that, Mr. Chairman, I will yield back.
    The Chairman. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    Thanks to the three of you for being here today. In 
particular, Secretary Kerry, since I think this is the first 
time you have been before this committee, so I appreciate your 
being here.
    I guess at the outset, I think we can all agree that this 
incident occurred, I think we are all clear as to who is 
responsible for the chemical attack. I don't think there is any 
doubt about that. I think the American people accept that as 
well. But I have a series of questions related to why he did 
it, sort of what his motives are. And it doesn't matter to me 
which one of you answers these questions. But, first of all, 
why did Assad do this in the first place on August 21?
    General Dempsey. Let me. Militarily, I can't speak to his 
internal domestic calculation, but militarily his force has 
been at war now for 2 years. It is tired. They were having an 
extraordinary difficult time clearing neighborhoods because of 
apartment complexes and so forth. It consumes a military force 
to clear an urban setting. And so he took the decision to clear 
it using chemicals.
    Mr. Loebsack. In essence, to use chemical weapons on a 
tactical basis? Okay.
    General Dempsey. Exactly.
    Mr. Loebsack. Do you folks consider him to be a rational 
actor in the classical international relations sense of that 
word? Do you consider the President of Syria to be a rational 
actor?
    Secretary Kerry. I mean, we get mixed info. To some degree 
he is isolated; to some degree he is operating under very 
difficult circumstances where people apparently tell him things 
he wants to hear, I don't think he gets a lot of bad news 
delivered to him, and so forth. But he certainly has a survival 
instinct and a rational sense of what he would like to do.
    I think part of the--if I can just add to what the general 
said--part of his calculation for using them is that he has 
been able to use them in small amounts without anybody stopping 
that. We did ratchet up, President Obama, when he had 
conclusive evidence that the line that he had drawn had been 
crossed, he decided that was sufficient then to send a message, 
and he dictated that we would assist the opposition. Now he is 
taking it to the next level.
    Mr. Loebsack. If I could continue on. Thank you for the 
answer. Did he use these weapons then to simply maintain his 
power from a rational actor standpoint? Is that fair to say?
    Secretary Kerry. Use them to do what?
    Mr. Loebsack. Maintain his power, to remain President of 
Syria.
    Secretary Kerry. Yes. And to beat the opposition, sure.
    Mr. Loebsack. What we are saying here, too, is that this 
limited strike, however limited it is, is not designed to 
remove him from power. Is that correct?
    Secretary Kerry. That is correct.
    Mr. Loebsack. Although it was stated, the President some 
years ago stated that he would like to see Assad go. Is that 
correct?
    Secretary Kerry. That is correct.
    Mr. Loebsack. And it has been stated today that perhaps 
further down the road there will be one of the--maybe one of 
the effects of this will be to get him to the bargaining table 
with the expectation, I assume, on the part of our government, 
many of us here, that he won't be President of Syria any 
longer. Is that correct?
    Secretary Kerry. That is the fundamental strategy. But the 
connection is not quite accurate. This strike is calculated to 
tell him don't use those weapons and to reduce his capacity to 
do so sufficiently that he will know that if he were to do it 
again that worse could happen to him. That is predicated on his 
rational connection, if I do this, X will happen.
    Mr. Loebsack. And it is important, I think, if we are going 
to have a successful strategy, it is important for us to think 
about this from his perspective. We don't like him, we don't 
empathize with him, we don't think he is a good guy. He is a 
bad guy. But at the same time if you were in his shoes and the 
greatest power on Earth attacked him in however limited a way, 
and if his goal is to stay in power, and if he is a rational 
actor, why would he not simply conclude that the strike was--
even though we don't want it to be the case, you may not want 
it to be the case--why wouldn't he conclude that the strike is 
intended to get rid of him as President of Syria? Why would he 
not conclude that?
    Secretary Kerry. Because a number of things. Messaging, the 
targeting and the nature of the strike, which he full well 
knows is--he listens to this debate. He knows Congress isn't 
deciding to get rid of him. The message is going to be pretty 
clear. So the bottom line is that it will be targeted to do 
what it can, which is to achieve a restraint on his ability to 
use his chemical----
    Mr. Loebsack. And I understand what the goal is. I 
understand the rationale. My concern is----
    Secretary Kerry. But, but----
    Mr. Loebsack. Let me just finish, because I just have 4 
seconds. My concern, and I think it is an important one, is 
that if he doesn't do what is intended----
    The Chairman. Gentleman's time has expired. Gentleman's 
time has expired.
    Mr. Loebsack [continuing]. What will be the consequence, 
what will be his response?
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. First question is 
this: If Assad stops using his chemical weapons and gives them 
up tomorrow but continues to kill 50,000 Syrian civilians next 
year, do we take the military option off the table?
    Secretary Kerry. I don't believe that the American people 
or the President want to get involved in that way directly in 
the war. But we have made the choice of supporting the 
opposition. That support for the opposition is growing, and it 
is very significant from a number of allies in the region. I 
can't go into all the details in this committee of some things 
that are happening, but it is clear that--I mean, there is a 
distinction between the chemical weapons, weapons of mass 
destruction, the prohibition on their use and this action 
versus the other efforts that are geared to try to bring him to 
the table----
    Mr. Hunter. If Assad kills 1,000 people a year using 
chemical weapons or 100,000 people a year using conventional 
weapons but not chemical, you are saying that it is the 1,000 
that die using chemical that warrant an attack and the 100,000 
that would die from conventional----
    Secretary Kerry. No, it is the not the measurement of the 
numbers of people, it is the----
    Mr. Hunter. The way in which they were killed.
    Secretary Kerry. It is the use. Correct.
    Mr. Hunter. Okay. So let's talk about the opposition. Let's 
say for argument's sake you can find 30,000 to 40,000 good, 
reasonable, moderate, more secular Syrians to fight on our 
side. Why is that proposal long term not before Congress? Why 
is the train and assist using Title 10, why is that not in the 
proposal so that there is some long-term strategy that we can 
look at to where it seems like we are not just lobbing a few 
missiles, we do a long-term train-and-assist goal?
    Secretary Kerry. Well, up until now, to be honest with you, 
Congressman, there has been a fair amount of resistance to 
that, as you know. I mean, Senator McCain, Senator Graham, 
others have called for more significant efforts, but there has 
been a resistance in Congress, which is not----
    Mr. Hunter. If I could interrupt. There has been a 
resistance from everybody, including the American people, 
because it hasn't been articulated to them by the President or 
by the administration on what the different options are, I 
think, long term.
    Secretary Kerry. Well, I think we have articulated. I 
certainly have had several hearings in which I have articulated 
the need to do this, and I came up the Hill and talked during 
the course of the time to some of the committees when we were 
looking for some reprogramming. But I think it is fair to say 
there hasn't been a major debate over Title 10, and there are 
people who believe that that might be a more effective way to 
go at it.
    What I do know is the President is committed to continue to 
help the opposition. He would like to see us do more for the 
opposition. And I think that part of the follow-on to this will 
be a more focused effort with respect to the capacity of the 
opposition.
    Mr. Hunter. I would suggest that the Congress would be 
probably more open to that than we are to a strike. And even if 
you don't get the outcome you desire, if we are to bring this 
to a vote, I suggest that we bring that up and work on that as 
a next step.
    Secretary Kerry. Look forward to working with you on that, 
Congressman.
    Mr. Hunter. Thank you.
    General Dempsey, you are familiar with the Powell doctrine. 
There might be a Dempsey doctrine that I don't know about.
    General Dempsey. Well, I read your editorial today, so I am 
refreshed on the issue of the Powell doctrine.
    Mr. Hunter. Okay. The problems with doctrines is you have 
got to stick to them sometimes, no matter the case. There are 
kind of objective wicket points that you can hit and go down.
    If you were to look at Iran and Syria and go through the 
Powell doctrine, which would you say is the biggest threat to 
America's national security interest, Iran and their 
centrifuges, trying to get weaponized uranium, or Syria gassing 
their own people?
    General Dempsey. I might suggest that is a false dichotomy. 
They are both threats to our national security. The longer term 
threat is clearly Iran.
    Mr. Hunter. So my question is this: If we are willing do 
this over chemical weapons, what stops us from trying to get a 
resolution of force to bomb the hell out of Iran, who is the 
real actor here, the real threat behind everything that we face 
in the Middle East? Yet we are focused on this sideshow. Where 
is the focus on Iran? And should the focus be on Iran and not 
necessarily Syria?
    Secretary Kerry. Well, let me make it clear, we have an 
enormous focus on Iran. There is a new President, a new group 
of officials who have taken over responsibilities, new 
negotiators for the P5-plus-1. And there is a lot of discussion 
taking place within the administration about how those 
negotiations ought to proceed and what hopes there may be.
    Mr. Hunter. Mr. Secretary, I am almost out of time.
    Secretary Kerry. Okay. I apologize for that.
    Mr. Hunter. It is not your fault.
    If we are willing to do this, you say there is a lot of 
negotiations and talking about Iran, but you are coming to ask 
Congress for a resolution of force to commit to an act of war 
against the Assad regime and Syria, but you are not doing that 
for Iran, who I think we would all agree is the real 
existential threat to us and to our allies, to Israel, to 
Jordan----
    Secretary Kerry. Congressman, Congressman, the President's 
first preference with respect to Syria is diplomacy. His first 
preference with respect to Iran is diplomacy. And it should be 
everybody's first hope.
    The Chairman. Gentleman's time has expired.
    Secretary Kerry. And we have exhausted that possibility 
with respect to Iran, but we have found that we have been 
blocked with respect to Syria. So there is a distinction.
    The Chairman. Secretary Kerry will have to leave at 12:35. 
Secretary Hagel and General Dempsey will remain with us.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you all for being here. And thank you, Secretary 
Kerry. We miss your representing us in the United States 
Senate, but appreciate so much your shouldering these new 
responsibilities.
    And I thank you all for being here as we engage in this 
very important debate. I know it has been an issue as to 
whether or not it was a way forward. But, nevertheless, I 
think, as you have seen the tremendous interest that we all 
bring to this, and appropriately so. We have fast-moving 
events. I appreciate, Secretary, the sort of back-channel 
efforts to find a different way. And I appreciate very much 
also our President's openness to pursuing that different way.
    But in the meantime we are really here to discuss the 
merits of a military option. And as I have heard you all say in 
many other briefings, the goal is to deter President Assad's 
future use of chemical weapons and degrade his capacity to use 
them. You are explaining an effort that will be limited in 
duration, limited in scope, and not open-ended. But that is not 
the concern so many of us have, that there is an inevitability 
to this that will take us much further down the road than any 
of us want.
    So the question I have is that, given the many sites that 
are scattered across the country of Syria, the many chemical 
weapon sites, and the fact that many of the sites are located 
in population centers, it is clear that chemical weapons will 
remain in Syria despite whatever we may do militarily. And 
also, given our limited objectives, we do not seek regime 
change, President Assad will remain in power. So he will still 
have chemical weapons, and he has demonstrated a willingness to 
use them, whether it is as a tactical weapon, one of the many 
tools in the toolbox that he has when he is cornered and he 
sees no other way out. That is what led us to the August 21st 
event.
    So let's just assume, not in the immediate aftermath, but 3 
months down the road, 6 months down the road, President Assad 
chooses to use chemical warfare, whether in a small event or a 
large event. But as a result of military action and the red 
line that our President has drawn, we have said we will respond 
to that and we will respond to it militarily.
    What will we do in the event President Assad uses chemical 
weapons, still in power for whatever reason, either as a tool 
in the toolbox or to show he is still in charge, that he 
doesn't take the international community or our efforts 
seriously, what will we do? I think I would start with you, 
General Dempsey.
    General Dempsey. Well, I can't speak for our elected 
officials on what their guidance to me would be. But I can tell 
you that we have prepared subsequent target packets for exactly 
that contingency. So we will be prepared, if necessary, to act 
again.
    Ms. Tsongas. Would that necessitate your coming back to us? 
Let's say the authorization for use of military force is----
    General Dempsey. It depends on the resolution, depends on 
how the resolution----
    Ms. Tsongas. So if there is a time limit and this is 
outside that time limit, would you come back to us?
    Secretary Kerry. We would have to come back to you, but it 
would depend on whether or not you put a trigger in a 
resolution that covered that contingency.
    Ms. Tsongas. But do you think it would be appropriate to 
take military action should he use them again, given the red 
line we have drawn?
    Secretary Kerry. This is intended not to destroy his entire 
capacity or the country or to engage in the regime change. It 
is intended to send the message to him that more can happen to 
him. If he makes the ill-advised decision to do it in the 
future, we would indeed believe that we would need to make it 
clear to him that you need to do more. That is evident. And the 
targeting is such that that would need to happen.
    Now, I don't believe, personally, I don't believe that will 
happen. I think the message will be clear. I think it will send 
him a chilling message, notwithstanding that it is targeted and 
limited. And that is why I think that he and the Russians are 
responding the way that they are.
    But I disagree with you about this inevitability, the sort 
of fear of inevitability it is going to drag us into something 
down the road. I worry much more that not doing something now 
creates an inevitability that is going to drag you into 
something more complicated and more urgent and more dangerous. 
And I think that is what people are----
    Ms. Tsongas. Mr. Secretary, could I give Secretary Hagel a 
chance to comment what your thoughts might be?
    Secretary Hagel. Well, I would agree with what Secretary 
Kerry said and General Dempsey. The President would always have 
the option and has been very clear on what he said about, as 
you note, violating a norm, our policy on this issue, starting 
with the fact the President has come to the Congress for this 
resolution on this authorization. And he has the option to do 
more, and he should.
    Mr. Thornberry [presiding]. Gentlelady's time has expired. 
Thank you, Mr. Secretary.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Gentlemen, thank you all for your service, appreciate your 
being here. And I respect the decisions that you have to make, 
I respect our Commander in Chief, President Barack Obama, and 
the difficult decisions that he has to make. Agonizing 
decisions, in many cases.
    You may remember I asked a question last night in the 
classified briefing that was given to the House about possible 
retaliation. And I asked this of Director James Clapper, if he 
knew of threats against our homeland or against our assets, 
against our interests. And I am confident that everything that 
can be done to protect us will be done of threats that we know 
of. But given the serious nature of what we are looking at, and 
almost the certainty that should a military strike be done by 
the U.S. on Syria there will be some attempts at retaliation, 
there will be serious consequences, given all that, I just have 
to express some doubts I have. And I am happy to hear your 
response to this.
    But when I look at the pattern of leadership over the last 
few years, I just have some doubts. For instance, leading from 
behind in Libya. To me, that is not a good pattern. The 
unresolved murders in Benghazi. You know, I am very disturbed 
about that. I hear about that from my constituents to this day, 
almost on a constant basis. The massive defense budget cuts 
that we have had over the last 4\1/2\ or so years. That causes 
me concern. Pressuring Israel to make concessions that could 
harm Israel's security. I have doubts about that.
    So when I put all those doubts together, and I know that we 
are going to have serious consequences, I am very reluctant to 
vote yes on this upcoming resolution. And I have many 
constituents, a great majority, who feel the same way. And they 
have articulated this very same concern. Is there anything that 
you can say that would relieve my doubts or concerns that I 
have just expressed to you?
    Secretary Hagel. Congressman, I will respond initially, and 
I suspect my colleagues would want to say something. You have 
covered a number of dimensions of your concern, legitimate. And 
obviously that is why we are having these hearings.
    Let me start with Benghazi. This administration continues 
to follow through on the commitment the President of the United 
States made to find those responsible for what happened a year 
ago, and that is happening. DOD [Department of Defense] is 
working with FBI [Federal Bureau of Investigation], CIA 
[Central Intelligence Agency], other agencies in this. General 
Dempsey and I talk with Admiral McRaven. So we are closely 
aligned in continuing to do that. So that has not escaped the 
priority list of the President, nor this administration.
    On some of the other issues you mentioned, Israel, we are 
working very closely with Israel on this, talking with Israel 
all the time, as Secretary Kerry noted his conversation with 
the Prime Minister, as we are with our allies in Turkey, in 
Iraq, in Jordan, in Lebanon. International community effort. 
This is an important piece of what the President wanted to 
accomplish. You heard what Secretary Kerry said in the progress 
that we have made and the numbers of countries that have come 
forward so far. There are more, there will be more 
understanding this.
    One last point on this. I said in my opening remarks, and I 
have noted it here a couple times this morning, there is risk 
in inaction, too, which everyone on this committee knows. We 
could walk away. We understand the American public concern. I 
am concerned. We are all concerned. But let's look at the other 
alternative here, is that we just let it go. Conversations 
about Iran here a few minutes ago. These other countries, Iran, 
North Korea, Syria, Hezbollah, terrorist groups, are watching. 
They are observing. If there is no international response to 
this, if this allows to continue to play out with no response, 
do we think really that that makes things safer for our 
interests, our national security interests? Do we think this 
makes a more stable, secure world when we don't respond? Maybe 
so. I don't think so.
    The Chairman [presiding]. Thank you. Gentlemen's time 
expired.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    I want to address you, Secretary Kerry, because after 
graduating from college and enlisting in the United States 
Navy, you served your country in Vietnam, where you were 
awarded a Silver Star, a Bronze Star, and three Purple Hearts. 
When you returned home, you went to law school, became an 
attorney, became a district attorney, prosecutor. Later, you 
offered yourself for political office in the United States 
Senate. You were elected, you served for 28 years, much of 
which, if not all of which, was on the Senate Foreign Relations 
Committee, and at one time chairing that committee. And then 
you were appointed by President Obama to serve in this high 
office, Secretary of State. You were confirmed by your 
colleagues in the Senate 97 or 93 to 1, I believe it was. And 
you are a man who has always meant what he said and said what 
he meant. Isn't that a fact?
    Secretary Kerry. I have tried, certainly, Congressman, I 
have tried.
    Mr. Johnson. Well, I mean, so for anyone to think that you 
would say something off the cuff without meaning it is probably 
mistaken. Would you agree?
    Secretary Kerry. Well, I am not speaking off the cuff, and 
when I do I get in trouble.
    Mr. Johnson. I know you do not speak off the cuff. And so 
the other day, Monday, yesterday, when you mentioned about a 
way forward for Syria to be able to avoid a United States 
military response to the use of chemical weapons, you did not 
misspeak, did you?
    Secretary Kerry. No, I didn't misspeak.
    Mr. Johnson. And you meant to say what you said at that 
time. Isn't that correct?
    Secretary Kerry. I did.
    Mr. Johnson. And now, over the last week, both you and 
President Obama were at the G20 conference, or during that week 
at various times you were there. You----
    Secretary Kerry. Actually, didn't. I was at the European 
conference in Vilnius; I did not go St. Petersburg.
    Mr. Johnson. Okay. All right. So the President was able to 
speak with----
    Secretary Kerry. President Putin.
    Mr. Johnson [continuing]. President Putin while at the G20 
conference in St. Petersburg, and they discussed this way 
forward for Syria to be able to avoid a military response.
    Secretary Kerry. Correct.
    Mr. Johnson. And isn't it a fact that this proposal that 
some say was made by President Putin is something that both 
President Obama and President Putin are responsible for.
    Secretary Kerry. Well, it has been discussed, yes, and I 
think that is fair. But I think that most.
    Mr. Johnson. And----
    Secretary Kerry. Sorry. Go ahead, Congressman.
    Mr. Johnson. And you actually discussed it yourself with 
the Foreign Minister of Russia, Mr. Lavrov, correct?
    Secretary Kerry. Yes, I did.
    Mr. Johnson. That was done this past weekend.
    Secretary Kerry. Yes.
    Mr. Johnson. And so it was no mistake that on Monday you 
were ready to come forward with this proposal.
    Secretary Kerry. Well, I was asked about it.
    Mr. Johnson. You were asked about it, and you responded 
because you are a man----
    Secretary Kerry. I responded because I was asked.
    Mr. Johnson [continuing]. Who means what you say and say 
what you mean, you responded appropriately to the question, and 
thus it became a public issue.
    Now, my purpose for going through this is to first 
congratulate the Obama administration for the way which it has 
handled this dicey, delicate issue. And I myself am hopeful 
that going down the two tracks that the administration has laid 
forth, one military, the other diplomacy, that we will be able 
to accomplish the objective of this entire matter without 
having to use military force.
    I want to thank you. And I wish I had time for you to 
respond.
    The Chairman. Gentleman's time expired.
    Secretary Kerry. Thank you, Congressman. I appreciate it 
very, very much.
    The Chairman. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    I want to thank the gentlemen for being here today. I know 
you all have a hard job and you have a very tough sell. I know 
you are up against the clock, Secretary Kerry, so I will keep 
my comments short.
    I have no questions. I think everything for the most part 
has been asked and it has been answered, has been out in the 
public. And I have seen things behind closed doors. But I know 
one thing that is crystal clear and that there seems to be and 
appears to be, because there is no national will to engage the 
United States into Syria at this time. Why? I don't have all 
the reasons why. But what I hear the most is that there is no 
direct threat. There is no upside, there is no win, there is no 
strategy, there is no vision, there is no trust. And the list 
goes on and on.
    I have done my job. I have reviewed the evidence. I have 
heard from the administration. And I have weighed the risk. I 
have looked at the pros and cons. But more importantly, I have 
listened to my Mississippians, my constituents, from 
Mississippi's Fourth Congressional District, and 98 percent of 
them say no. And I agree, I am a no as well. And, gentlemen, I 
wish you the best of luck. You do have a tough job. But 
America's just not buying what you are selling at this time.
    I yield back.
    Secretary Kerry. Could I just say, since there is a little 
time, Mr. Chairman, and I have to leave right now, I want to 
make sure everybody understands that President Obama and all of 
us would hope for a peaceful, diplomatic way to try to resolve 
this. I can't tell you how much I would hope that you could get 
these chemical weapons contained and destroyed. It is a tough 
lift. And I don't want people to think it is easy, which is why 
we haven't ballyhooed it in a bigger way. But if it could be 
achieved, it is obviously, you know, a terrific, you know, way 
to proceed forward.
    But no one should underestimate. You know, having been 
elected for 28--for the terms I was, six terms, I guess it 
was--I feel I understand this sense in the country. But I keep 
hearing people saying they don't want to go into Syria. I even 
heard the Marine in the very early comments that were made 
earlier, that this Marine down in Quantico said, you know, 
don't take us into Syria, or we shouldn't go into Syria. We are 
not going into Syria.
    This is a tough sell. You just said it. I get it. But we 
are not going into Syria. We are not asking to go into Syria. I 
don't see any route by which we slide into going into Syria. I 
don't see the slippery slope. People say you are going to get 
dragged in. I do not see that. We have a very clear distinction 
here.
    There are people who want to fight this war in Syria. Not 
us. We are helping them. They want to go. They are in. They are 
there, all in. And there are plenty of people with deep pockets 
who want to support them. The Saudis, the Emiratis, the 
Qataris, the Turks, and so forth. We are not called on to do 
that. So I really have a confidence after all these years here 
that we are not going to get dragged into something.
    And sometimes around here I think Congressmen and Senators, 
and I did this myself, I voted on some things when it was 80 
percent against me, or 85, but I thought it was the right thing 
to do for the country. And I think sometimes people have to 
think about that here, measure the facts and measure the 
consequences of not acting.
    That would be my final comment, Mr. Chairman. You have been 
very, very generous, and I really appreciate all the members of 
the committee. I apologize for leaving now, but, as I said, I 
have to go have the conversation to try to help and see if 
there is any reality to this process. Thank you.
    The Chairman. Thank you, Mr. Secretary. And I think you 
said it well. I think all of the Members of Congress, both 
sides of the aisle and both sides of the Capitol, want to do 
what is right. Finding how you determine what is right is the 
hard thing. And people, I think, can be very honest, very 
sincere, very hard-working, and think they are doing what is 
right and be totally opposite. And this is why we are going 
through this process. We thank you for what you are doing and 
thank you for being here.
    Secretary Kerry. Thanks so much.
    The Chairman. And Ms. Hanabusa.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chairman. Mr. 
Chairman, will we be able to put some questions in writing to 
the Secretary of State, though he has left? Thank you very 
much.
    Thank you, Secretary Hagel, good to see you again, of 
course General Dempsey.
    My question is about really what all of this means. First 
of all, I don't think there is anyone here that in any way 
condones the heinous use of the chemical weapons. I think that 
is a given. However, what we are here for is about the 
resolution and how we proceed from here.
    One of the things in reading both yours and Secretary 
Kerry's statements, and I don't know if you can answer 
Secretary Kerry's statement, but he says that of course they 
are waiting for the proposal--this is the one that we have been 
discussing all morning--but we are not waiting long. Is there a 
time limit that the administration is willing to wait for that 
proposal? Is there anything, like a week, 2 weeks?
    Secretary Hagel. I don't know of a specific amount of hours 
or days, Congresswoman. I think the President mentioned this 
specifically last night in the six interviews he did, Secretary 
Kerry did. But I think it is pretty clear that that proposal 
has to come rapidly. I haven't seen the developments here in 
the last few hours other than what Secretary Kerry announced 
here on the agreement with some of the countries that he noted 
to go before the U.N. So I would assume this is on a very fast 
track, and I think the President has made that clear. Thank 
you.
    Ms. Hanabusa. Secretary Hagel, we know that the issues of 
deter and degrade, that is our objective, and the deter and 
degrade seem to reference, or I thought it referenced basically 
the chemical weapons or the stockpiles of the chemical weapons. 
And what we are here is to hear how--of course General Dempsey 
says that it is going to be a very limited, directed, tailored, 
and I think precision has always also been the adjectives used 
limiting the possibility of any kind of injury to the civilian 
population. But notwithstanding we could anticipate some kind 
of collateral damage.
    And I thought that was also in line with the ultimate goal, 
which is that we all know that everyone is saying that whatever 
military action is taken will not--will not--resolve the issues 
regarding the chemical weapons, it would just deter at best or 
degrade at best, but that what would be required would be a 
diplomatic resolution. That is why your statement in your 
testimony that says, ``A political solution created by the 
Syrian people is the only way to ultimately end the violence in 
Syria, and Secretary Kerry is helping lead international 
efforts to help the parties in Syria to help move towards a 
negotiated transition,'' the word ``negotiated transition'' is 
what caught my eye, because we have said continually that we 
are not engaged in any kind of a, quote/unquote, ``regime 
change.'' Yet a negotiated transition seems to imply a regime 
change. And the reference to the Geneva II status in Secretary 
Kerry's statement, it is my understanding also references to a 
potential regime change.
    So are we looking to, when we talk about a diplomatic 
resolution on this limited resolution, are we looking to a 
diplomatic resolution on the use of chemical weapons or are we 
looking to a diplomatic resolution towards a negotiated 
transition for the Syrian people, which seems to mean regime 
change?
    Secretary Hagel. Well, two specific issues. One, the 
resolution is defined clearly, narrowly, and the language 
speaks for itself. And I think we have, I hope, cleared most of 
it up. I don't know if you have seen the Senate Foreign 
Relations Committee resolution that they passed last week, but 
it defines it. It is very clear in scope, in length, in all 
that probably is necessary in an authority like this, at least 
in the eyes of the Senate committee. And the administration can 
work with that authorization.
    The second part of your question, it is the policy of this 
administration that, as stated by President Obama, that 
President Assad has lost the credibility to govern his country. 
But this specific resolution that talks about this specific 
request is not about regime change, two separate issues.
    Ms. Hanabusa. Thank you.
    The Chairman. Gentlelady's time expired.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. I know it has been a 
long morning.
    I want to talk about chemical warfare in general, and going 
back many, many years ago, the ones who probably had a 
signature attached to that, and that is the Russians, and who 
wrote the manuals, who dealt with Saddam Hussein. And I am just 
wondering if we are kind of forgetting that leverage point 
militarily in terms of who trained all these individuals. And 
if you could briefly address that.
    And then my second condition is about MOPP 4 [Mission 
Oriented Protective Posture] conditions. Both gentlemen were in 
the military. And everybody has said that, well, you know, it 
is a limited attack, you are not sure what the response will 
be. But if something happens, whether it is to those Patriot 
batteries that are within range and they have to go into MOPP 
4, the fully buttoned-up conditions, which everybody knows that 
has been in the military, you are good for maybe, what, a half 
an hour before you pass out in the Middle East when it is 130 
degrees.
    So if you could just, since we are talking about chemical 
warfare, if the signature of the Russians and their historical 
ties in terms of leverage to Syria and those countries, that 
has been looked at. And, of course, secondly, if you could 
address the capability of the military in terms of up-to-date 
training in regards to MOPP 4 conditions.
    General Dempsey. Yeah. We are well aware of the expertise 
that the Russians have in chemical weapons. And, in fact, I 
think it is what leads us to believe that this offer might have 
some credibility. In terms of Mission Oriented Protective 
Posture, MOPP, as you know, it is 0 through 4, it would be 
irresponsible for a commander to, just based on where we are 
today, to have people in MOPP 4, because you are right, you 
can't sustain operations. By the way, MOPP 4 is full gear, 
protective mask, gloves, and boots. So what commanders do is 
they ratchet it up and down based on, as you know, on the 
threat. And we are prepared to do that as the threat changes. 
And we also believe that we have got good enough radars there 
that we would also understand when the threat was highest.
    Mr. Cook. Thank you, General.
    And the other question I wanted to ask, because this was a 
previous question, and we were talking about utilities and 
camouflage and changing one part to the other. And I raised the 
question, well, when is the last time your chemical--and this 
was 3 or 4 months ago--when is your chemical protective 
equipment, has that been looked at for a change? I know we are 
changing the sleeve and it is expensive every time we do that. 
If we are talking about the chemical environment, I think we 
have got to look again at how we are going to outfit those 
individual soldiers, marines, anybody that goes there, because 
I get very excited about it. And Congressman Jones talked about 
1st Battalion, 8th Marines, that was my old battalion. It was 
2nd Marine Division. And it was a long time ago but, you know, 
you never forget those, particularly the troops that died. So 
if you could just address that very briefly.
    General Dempsey. Thanks, Congressman. And, you know, you 
are exactly right, because we haven't dealt with this kind of 
threat in a while, your question is valid. I will assure you 
that we are constantly updating both our chemical equipment and 
our chemical doctrine and continue to train to that standard at 
places like the national training centers, Twentynine Palms, 
and so forth. But I will also tell you, as you know, chemical 
gear has a shelf life, and so it has to be replenished. And the 
new chemical suit is called the JLIST [Joint Lightweight 
Integrated Suit Technology] and it has a shelf life, and we 
monitor that closely.
    Mr. Cook. Well, you know, I got the Twentynine Palms, and I 
got Fort Irwin, and I am always concerned about their 
readiness. They had to cancel three exercises out there because 
of money. And as you know, if you train to go to war and when 
we start doing that and then the balloon goes up, you never 
know what is going to happen when you are going to go. And, Mr. 
Secretary, we talked about this in Afghanistan. I know you have 
been, both of you gentlemen, have been in combat. And this is 
very, very serious, and we have got to make sure that these 
troops got to be combat ready, and we can't be stupid about 
this.
    The Chairman. Thank you.
    Mr. Carson.
    Mr. Carson. Thank you, Mr. Chairman.
    General Dempsey, I am interested in better understanding, 
sir, how a strike would be carried out with minimal risk to our 
service members. I am particularly concerned about anti-ships 
and anti-air risks. To the extent possible in an unclassified 
setting, could you tell us about the ability, sir, to conduct a 
strike with minimal risk of serious immediate retribution from 
the Assad forces?
    General Dempsey. Risk to our force?
    Mr. Carson. Yes, sir.
    General Dempsey. Yeah. The strikes as currently conceived 
would be standoff. I won't say more than that, but we would 
remain outside of the ability of the Syrian regime to threaten 
us.
    Mr. Carson. Yes, sir.
    Secretary Hagel, can you tell us, sir, about what resources 
and capabilities, if any, the Arab League and other regional 
players could bring to an operation in Syria?
    Secretary Hagel. Well, Secretary Kerry noted some of the 
specific countries that we are talking to who are very 
supportive of our potential actions, would want to participate 
in some way. So those engagements and conversations are going 
on right now, as well as our military-to-military with some of 
those countries.
    Mr. Carson. Thank you, gentlemen.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    General Dempsey, just for a second I am going to refer to 
an article that was in Army magazine that has you quoted within 
it. And you talked about civilian leaders having to make these 
tough decisions. And you said, ``Once we take action, we should 
prepare for what comes next. Deeper involvement is hard to 
avoid.'' You also referred to use of force is no less than an 
act of war, and we could inadvertently empower extremists or 
unleash the very chemical weapons we seek to control. A fuller 
quote in your letter to Senator Carl Levin, the chairman of 
Armed Services Committee in the Senate, said, ``I know that the 
decision to use force is not one that any of us takes lightly. 
It is no less than an act of war.'' That is where those quotes 
came from. And, General, I tend to agree with you on those 
assessments.
    And then Secretary Kerry, and I am sorry he had to leave, 
but I will address this to him, you know, he said, what we have 
to do is make clear to people we are not going to war, that we 
are not talking about war. That makes it very difficult for us 
to hear one comment that this is no less than an act of war and 
then the Secretary saying we are not going to war.
    And military actions are always going to have a greater 
chance of success within this country if we have the backing of 
the American people, which is difficult right now. And it is 
difficult to make that case when you hear these two seemingly 
diametrically opposed opinions of what we are doing.
    I am going to make this easy, this should be a yes or no 
answer for you, which after a long morning you might 
appreciate. But I pose this question, I will ask Secretary 
Kerry for the record.
    [The information referred to was not available at the time 
of printing.]
    Dr. Wenstrup. If facilities in the United States were 
attacked by another nation in the same manner that is being 
proposed by the United States upon Syria, which you know what 
those proposals are, and it has been described as a severe 
consequence to the Assad regime, would you, if these were 
enacted on the United States, the same things we are proposing 
to do, would you consider that to be an act of war against the 
United States of America?
    General Dempsey. I won't answer one question, but I will 
answer briefly. I have said in previous testimony that the 
strike would be an act of war. I think the distinction the 
Secretary is making is that the connotation of war, the kind of 
vision of war is protracted, long campaigns, and that that is 
not what we are envisioning.
    Dr. Wenstrup. Thank you. So then your answer would be yes, 
you would consider the same type of thing upon the United 
States as an act of war.
    General Dempsey. Yes. For a soldier, when you put them in 
conflict, it tends to be a war.
    Dr. Wenstrup. Yes, sir.
    Secretary Hagel.
    Secretary Hagel. No, I think that is right. This is an 
issue of I can understand the definitions of what is war. You 
know, we haven't declared war in this country for a long time, 
but we have been in some. And matter of fact, two of the three 
longest wars we have ever been in, I think we all agree are 
wars but we didn't declare them war. So, I mean, we can dance 
around the definitions. But my sense is any time you use 
military authority or power, that is some aspect of war.
    Dr. Wenstrup. Thank you, sir. And I yield back my time.
    The Chairman. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    Thank you very much for being here. And I know you have had 
a grueling week. I have attended several of your briefings. So 
we appreciate it very much.
    I do believe the intelligence, but I also am concerned that 
we are going to swap chaos for chaos. Assad is murderous, he is 
evil, he is all those things that we have talked about. But, 
you know, the rebels have a problem also. They have got up to 
25 percent Al Qaeda and other extremists, according to the 
Secretary of State. I am very concerned about that.
    So we said we don't plan to topple Assad, we are just going 
to basically take out some capacity there and degrade and 
deter. But what if it does happen? We don't really know what 
will happen in that situation of chaos. You know, the best 
military plans sometimes do go astray. Then who is going to get 
control of these chemical weapons? What is the plan? You 
perhaps can't say it, but I just need to be reassured that 
there is some plan there. Also I am concerned about the death 
of more innocent people and the United States will be blamed 
for that. We know that they will be posting, just as they have 
posted the other victims as well.
    And finally, how does this air strike, if it occurs, play 
out in the region? We have got Sunni, we have got Shia, we have 
got Alawite, we have got Christian. We have such a hodgepodge 
of different religions and different causes and different 
attitudes. How would this play out in the region for us and 
also for them?
    Secretary Hagel. Well, thank you. And I recall your 
questions last night on this issue. So thank you, 
Congresswoman. I will give you my response, and General Dempsey 
may want to add something further.
    First, we recognize, I think we have all said and everyone 
here understands, that there is always unpredictability any 
time when a military strike occurs or action is taken. We do 
everything we can, as we have been, to think through options, 
contingencies, possibilities. What are the options on 
retaliation? What would happen if the Assad regime goes down? 
Your note about the percentage. Generally speaking, it is 
imperfect, what our intelligence assessments are on the 
composition of terrorists or the bad groups in that 100,000, 
generally, group who represent the opposition. That is all 
reality. But there are also a significant percentage of pretty 
responsible individuals that make up the Syrian Military 
Council and other dimensions of the opposition. Now, this is no 
guarantee of any outcomes. So we think through these things. 
And we work with our partners, as I have noted, along that 
border. We are very closely connected with all those countries 
and their military and their leaders.
    The strikes and the options that we have--possibilities of 
strikes--that we have given the President are all options that 
factor in what you are talking about. That is one of the 
reasons that is noted in the resolution in the President's 
request. The focus, the objective was not to topple Assad, 
specifically to deter through destruction of his capabilities a 
future use of chemical weapons. That also has a degrading 
effect on his military.
    Ms. Shea-Porter. But the what if----
    Secretary Hagel. But it also has other dimensions to it.
    Ms. Shea-Porter. Excuse me. The what if is still sitting 
out there. And I think that is what is frightening everybody.
    Secretary Hagel. Well, that is a what if. And I don't know 
of anybody who can give you 100 percent guarantee of anything. 
But I will also put the other side of this back on the table, 
which I have noted. What if we do nothing?
    Ms. Shea-Porter. And, Secretary, I know----
    Secretary Hagel. We are pretty sure that he will continue 
not only to do what he is doing, but worse.
    Ms. Shea-Porter. I don't mean to interrupt but I am down to 
30 seconds. So I just wanted to say one last thing here. For 
the countries that are surrounding and saying that they support 
this, I would like to see them more visible. I would like them 
to say they plan to put their military there. I would like to 
see them say they will put their money there. I would like to 
see them step up the humanitarian aid. I have looked at the 
numbers; the United States is once again leading way, and I am 
proud of that, for humanitarian aid.
    But I think what we are also hearing from our constituents 
is, you know, somebody else needs to step up and provide more 
humanitarian aid and provide more whatever it is that they want 
in the region instead of saying always, well, you know, good 
for you, United States, but we won't say our name publicly.
    So thank you very much. I yield back.
    Mr. Kline [presiding]. The gentlelady's time has expired.
    Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Sirs, thank you again for being here. And I represent the 
Indiana Second District in northern Indiana, and we have heard, 
obviously, like everybody else has, the hesitancy and the 
absolute no in this mission. And I guess two questions I have 
that we receive a lot. One is the urgency of the hour. Why now? 
We have sat here, General Dempsey, and listened to you and 
other folks have come in to brief us on every single time there 
has been a chemical issue with Syria. So my one question is, 
why now? And if you could just briefly answer that, I have a 
second question.
    Secretary Hagel. Well, I will start real quick. My quick 
answer is the scope of this attack on the 21st of August, and I 
think there is very little question now as the evidence 
continues to roll in, independent evidence, that it was the 
Assad regime who perpetuated this attack against their own 
people, the scope of this, the intent of that scope has shifted 
significantly from the earlier chemical weapons attacks. This 
last one was to clear an entire area. He used that as a clear 
military tactic. He had not done that in past attacks. That is 
one of the parts of this.
    And, General?
    General Dempsey. I have nothing to add to that.
    Mrs. Walorski. And my second question is, I mean, to me it 
was new information that we learned today that Secretary Kerry 
said that we are--we, the United States of America--supporting 
the opposition in Syria. And my question is, how were those 
opponents vetted? How do we know we can trust them? How do we 
know when there are so many factions there that we have all 
heard about, we have read it in the news, how many different 
factions are there, what criteria did we use to decide that we 
are going to trust the American foreign policy with folks that 
are considered rebels?
    Secretary Hagel. Well, I will begin, and then General 
Dempsey may want to come in with more specifics. But we have 
been vetting through the Syrian Military Council and our 
partners in that area for some time the opposition. That is not 
new. The President announced in June that he was going to step 
up his assistance to the opposition, specifically the Military 
Council. We know, everyone here knows, it has been already 
alluded to, that the humanitarian assistance that we have 
provided and the nonlethal assistance we have provided has been 
significant, in the hundreds of millions of dollars. But the 
President noted publicly in June that he would step that up to 
include military assistance.
    General, you want to add anything?
    General Dempsey. Regional partners, the part of the 
opposition that we have become familiar with, tribal leaders. 
But make no mistake about it, we have done this now--I have 
done it personally in three different countries in the region, 
and it is challenging. But we have a methodology.
    Mrs. Walorski. And how do we know, back to the chemical 
stockpiles, I asked this same question months ago, when we were 
sitting in a hearing and we talked about chemical stockpiles in 
Syria, and we had folks coming in from the intelligence agency. 
We had everybody in here talking about this issue. And I asked 
the question before, who monitors the stockpiles? How do we 
know today, now that we know we have had all these other 
attacks? And we had briefings in here and folks talking about 
the fact that we don't know where they are all at. How do we 
know today that Hezbollah and Hamas and Muslim Brotherhood and 
Al Qaeda haven't taken some of those stockpiled weapons and 
moved them elsewhere? How in the world? We can't track all of 
them.
    General Dempsey. No. We have all testified to the 
difficulty of having perfect intelligence about the chemical 
weapons. And to the Congresswoman's point, the risk of having 
some of that capability migrate into the hands of extremists 
exists today, the risk does. But we have no indications today 
that any of the groups you mentioned have any access to those 
chemical weapons. The indications are today that it does remain 
under the firm control of the regime.
    Mrs. Walorski. And that goes back into the months before 
when we had reports here----
    General Dempsey. It does.
    Mrs. Walorski [continuing]. That it was difficult tracking 
those chemical stockpiles?
    General Dempsey. It does.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Kline. Thank the gentlelady.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman.
    You know, in the short time that I have been a Member of 
this Congress, this is clearly the most consequential issue 
that we have dealt with. I sent out an email to my constituents 
last week, and I have literally gotten thousands of responses 
back, including from veterans and from service members serving 
overseas. And all of them asked some very real questions about 
whether or not Congress should authorize the President to take 
military action in Syria. And I appreciate your willingness to 
be here to help answer some of those questions.
    We have repeatedly discussed the need to show the integrity 
of our commitment with action, and that Iran and North Korea 
are watching. One of the most common questions or themes that I 
have been asked about is, what happens if we approve the use of 
military force and Assad crosses the line again? At that point, 
how do we keep this from escalating? And how do we limit 
further military actions that it is clear the United States 
people have a great deal of skepticism about?
    Secretary Hagel. Well, that question, Congressman, is one, 
as you know, that we have dealt with here this morning, as we 
have over the last 2 weeks.
    We believe, based on our intelligence, based on our close 
coordination with our partners in the area, no, as General 
Dempsey said, no perfect answer to your question. And because 
of every contingency and option we have provided, that if we, 
in fact, carry forward with the options the President may use, 
this will specifically address the clearly defined objective of 
degrading and deterring his capability to further use chemical 
weapons.
    Now, if he would choose, if that would occur, if he would 
choose to accelerate his efforts and use chemical weapons 
again, then, certainly, the President of the United States has 
every option, not just militarily, but other options available 
to him. I can't speak for the President, but my guess would be 
he would come back to the Congress and ask for further 
authorization. But the President always has that option to 
defend the interests of this country, and I believe he would.
    You want to add anything, General?
    General Dempsey. The only thing I would add, sir, is you 
asked what is it that causes us to believe we can manage the 
risk of escalation. I think it is a combination of the limited 
nature of the military operation as conceived. I think it is 
our ability to overmatch opponents in that part of the world. 
And it is our forward presence. And back to the budget issues 
we have been talking about, it is why forward presence is such 
an important part of our national security strategy.
    Mr. Kilmer. Thank you.
    I don't know if this is best directed toward Secretary 
Kerry or if either of could you speak to this. The other 
probably main thing that I have heard from folks in my neck of 
the woods is they want to know that all other options have been 
exhausted prior to taking military action, particularly in 
light of the news that Russia is recommending disarmament of 
chemical weapons from Syria.
    Do you believe that there are further opportunities to 
achieve a diplomatic resolution to this crisis? Are there other 
tools that we ought to be looking at? Are there any further 
sanctions that ought to be contemplated? What other tools 
should be contemplated, if any?
    Secretary Hagel. Congressman, thank you. I believe 
Secretary Kerry did address that here earlier this morning in 
reciting an inventory of different things that we have been 
doing in the way of diplomatic efforts, working with various 
institutions, organizations. He went through the United 
Nations. I think most every generally recognized global 
institution we have been working through. Sanctions with our 
European Union partners. We have exhausted almost every 
diplomatic option in this effort.
    This is why I noted in my response or in my remarks earlier 
in response to some questions here earlier this morning that 
Secretary Kerry continues to lead this Geneva II process. 
Diplomatic resolution, political settlement. I think most of us 
believe--the President does, I do, I think most of our partners 
in the world--believes that is the only way that this is going 
to get settled, through some diplomatic, political resolution. 
We are continuing to play that card out and stay on that track. 
Evidence of the development of the last 48 hours, what 
Secretary Kerry noted a couple of hours ago. So we are pursuing 
that track as well.
    Mr. Kilmer. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Kline. Gentleman yields back.
    I am advised that by previous agreement we need to bring 
this hearing to a close. Before I drop the gavel, I am going to 
do two quick things. One is a clarifying question to General 
Dempsey.
    As I understand it, General, your testimony has been 
repeatedly that you have been given the mission to develop 
military options to, quote, ``deter and degrade.'' And by that 
in amplification means his chemical capability and so forth. 
You were not given a mission, as I understand it, to develop 
military options, to demonstrate serious consequences to the 
neighbors for crossing an American red line. Is that correct?
    General Dempsey. I am not sure what you mean by neighbors.
    Mr. Kline. Anybody else in the world. But I am specifically 
talking about Iran, Korea, and others.
    General Dempsey. No. The mission has never been conceived 
as aimed at deterring others, although clearly there is a 
relationship.
    Mr. Kline. Thank you. Okay. So I see a number of members 
have stayed here for several hours. I know they have questions. 
I understand that some of them will be submitting questions for 
the record. I would ask the witnesses to please respond 
promptly.
    And with that I thank the witnesses and the members for 
being here. And we are adjourned.
    If members will just hold on until the witnesses can leave.
    Secretary Hagel. Mr. Chairman, thank you. And members 
especially who stayed. If they get us their questions, we will 
respond briefly and immediately so that they will have 
response. Thank you.
    [Whereupon, at 1:08 p.m., the committee was adjourned.]
     
=======================================================================

                            A P P E N D I X

                           September 10, 2013

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 10, 2013

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 10, 2013

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 10, 2013

=======================================================================
      
                    QUESTIONS SUBMITTED BY MR. JONES

    Mr. Jones. Can you assure me that we have developed contingency 
plans for any reaction from Syria on its neighbors. . . . any reaction 
from Hezbollah against Israel . . . any move by Iran, Russia, China, 
etc.? I know you can't articulate those plans but do you honestly have 
them.
    Secretary Kerry. Yes. Let me assure you that we have planned for a 
variety of contingencies. However, I cannot get into the details of our 
planning. Of course we are updating and reevaluating our plans 
continually to ensure that the President has the best options 
available.
    Mr. Jones. Why is this operation in our vital national interests . 
. . understanding that credibility of the Commander in Chief is not a 
vital national interest, and neither are the pictures of dead and 
wounded citizens (we learned that lesson from Somalia), and neither are 
suspected gas stockpiles. If you believe this is in our vital national 
interest, please provide your definition of the term.
    Secretary Kerry. The proposed military action would further the 
interests of the United States. It serves our vital national security 
interests in several ways. First, the President has made clear that 
Syria's violation of established international norms against chemical 
weapons use runs counter to the vital national security interests of 
the United States and cannot be tolerated. Second, the proposed 
military action would deter future use of chemical weapons in this 
conflict and future conflicts by making clear that we will not tolerate 
a violation of this kind. And third, any U.S. response would convey to 
Iran and others that the United States has both the military capability 
and the political will to protect its security interests--and when the 
United States draws redlines and says that all options are on the table 
to enforce them, we mean what we say.
    Mr. Jones. Can you assure me that we have developed contingency 
plans for any reaction from Syria on its neighbors. . . . any reaction 
from Hezbollah against Israel . . . any move by Iran, Russia, China, 
etc.? I know you can't articulate those plans but do you honestly have 
them.
    Secretary Hagel. Yes. Let me assure you that we have planned for a 
variety of contingencies. However, I cannot get into the details of our 
planning. Of course we are updating and reevaluating our plans 
continually to ensure that the President has the best options 
available.
    Mr. Jones. Why is this operation in our vital national interests . 
. . understanding that credibility of the Commander in Chief is not a 
vital national interest, and neither are the pictures of dead and 
wounded citizens (we learned that lesson from Somalia), and neither are 
suspected gas stockpiles. If you believe this is in our vital national 
interest, please provide your definition of the term.
    Secretary Hagel. The proposed military action would further the 
interests of the United States. It serves our vital national security 
interests in several ways. First, the President has made clear that 
Syria's violation of established international norms against chemical 
weapons use runs counter to the vital national security interests of 
the United States and cannot be tolerated. Second, the proposed 
military action would deter future use of chemical weapons in this 
conflict and future conflicts by making clear that we will not tolerate 
a violation of this kind. And third, any U.S. response would convey to 
Iran and others that the United States has both the military capability 
and the political will to protect its security interests--and when the 
United States draws redlines and says that all options are on the table 
to enforce them, we mean what we say.
    Mr. Jones. Can you assure me that we have developed contingency 
plans for any reaction from Syria on its neighbors. . . . any reaction 
from Hezbollah against Israel . . . any move by Iran, Russia, China, 
etc.? I know you can't articulate those plans but do you honestly have 
them.
    General Dempsey. Any military action would be focused on deterring 
and degrading future use of chemical weapons which I believe is in the 
best interest of our nation. To allow the international community to 
lower the threshold for acceptable use of chemical weapons exposes our 
military men and women to possible use against them in the future.
    Mr. Jones. With your allegiance being to the U.S. Constitution, and 
with the understanding that when asked your opinion on a matter that 
you would give it honestly, do you believe that this action is in the 
best interests of our nation and our military?
    General Dempsey. Any military action would be focused on deterring 
and degrading future use of chemical weapons which I believe is in the 
best interest of our nation. To allow the international community to 
lower the threshold for acceptable use of chemical weapons exposes our 
military men and women to possible use against them in the future.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. The proposed U.S. strikes are intended to merely 
deter Assad from using chemical weapons and degrade, but not eliminate, 
his capacity to do so. The objective of the current diplomatic solution 
that you suggested, and the Russians embraced, would be to actually 
remove the weapons from Assad's control and destroy them. Would you 
agree that this would be a better and more secure outcome than 
``deterring and degrading''?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Garamendi. As President Obama noted in an interview last night, 
the Iranians despise chemical weapons, having been a victim of them. 
The Russians are also opposed to the use of chemical weapons. Obama 
suggested that the Syrian regime's allies likely have seen the recent 
chemical weapons attacks as a mistake. How could we best work with 
those stakeholders in the conflict to pursue a diplomatic solution?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Garamendi. The Administration has repeatedly affirmed that 
there is no military solution to the civil war in Syria. Can you 
elaborate on the political negotiations underway?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Garamendi. What are the specific goals of a U.S. military 
strike against Syria? How will we assess if we have met these 
objectives? If we do not meet these objectives, do we plan to engage in 
further military actions to try to achieve them?
    Secretary Kerry. The President has been clear about the specific 
objectives and scope of any military strikes in Syria. These strikes 
would be narrowly focused on deterring further use of chemical weapons 
(CW) by the Assad regime; degrading the regime's ability to use CW; and 
upholding a clearly established international norm against the use of 
such weapons. Any such military response would not involve U.S. boots 
on the ground in Syria.
    The success of military action would be assessed based on its 
effectiveness in deterring the Assad regime from using CW again and 
degrading its ability to do so, as well as further deterring others who 
might consider using CW.
    Mr. Garamendi. What do we expect the military actions being 
proposed by the Administration will cost? Please suggest a high end and 
a low end estimate.
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Garamendi. I understand that one of the objectives of proposed 
military strikes is to ``degrade'' but not eliminate the Syrian 
regime's capabilities to deploy chemical weapons. Does this mean that 
Assad would retain some capacity to use chemical weapons after a U.S. 
bombing campaign? What military actions might the U.S. undertake if 
Assad uses chemical weapons after U.S. military strikes?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Garamendi. How many different groups comprise the Syrian 
opposition? In your estimate, what portion of the fighters would be 
considered so-called ``moderates,'' amenable to U.S. interests and open 
to a pluralistic Syrian society? What role do other ``extremist'' 
groups play within the opposition? If U.S. military actions were to 
destabilize and ultimately help topple the Syrian regime, how could we 
be sure that the moderate groups within the rebel coalition would take 
control of the country?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Garamendi. There has also been much discussion of providing 
arms to selected groups within the rebel coalition. What processes do 
we have for vetting the groups that would receive U.S. military 
support? How could we guarantee that U.S. military assistance would 
stay in the right hands? What assurances do we have that weapons would 
be properly used and secured?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Garamendi. Can you assess how U.S. military strikes might 
impact Iran's or Russia's military support for the Syrian regime?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Garamendi. If the Syrian regime responds to U.S. strikes by 
attacking Israel, Jordan, or Turkey, what range of military actions 
would the U.S. consider in response? Do we have a plan in place for 
this contingency? Does it include the possibility of U.S. troops on the 
ground? How might these and other countries in the region, including 
specifically Lebanon and Iraq, be affected by, and potentially respond 
to, an escalation of the current conflict?
    Secretary Kerry. We are working closely with our allies and 
partners in the region to ensure that we are prepared in case of a 
counterattack. We are postured in the region to respond to a variety of 
threats. The President has been clear about his desire not to put U.S. 
boots on the ground in Syria.
    I cannot speak for other nations' responses to escalation. We are 
continuing to work with those neighbors on ways to reduce the impact of 
the Syria conflict and to ensure we can effectively address any 
escalation that might occur after a potential strike. I cannot get into 
more detail here, but I am happy to discuss further in a classified 
setting.
    Mr. Garamendi. How might a U.S. strike impact the current refugee 
crisis? In a recent letter, Chairman Dempsey suggested that the cost of 
U.S. strikes on Syria would be ``in the billions.'' How might these 
billions be used to help alleviate the humanitarian disaster and 
instability within neighboring countries that has resulted from 
millions of Syrians being driven from their homes by this ongoing civil 
war?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Garamendi. What are the specific goals of a U.S. military 
strike against Syria? How will we assess if we have met these 
objectives? If we do not meet these objectives, do we plan to engage in 
further military actions to try to achieve them?
    Secretary Hagel. The President has been clear about the specific 
objectives and scope of any military strikes in Syria. These strikes 
would be narrowly focused on deterring further use of chemical weapons 
(CW) by the Assad regime; degrading the regime's ability to use CW; and 
upholding a clearly established international norm against the use of 
such weapons. Any such military response would not involve U.S. boots 
on the ground in Syria.
    The success of military action would be assessed based on its 
effectiveness in deterring the Assad regime from using CW again and 
degrading its ability to do so, as well as further deterring others who 
might consider using CW.
    Mr. Garamendi. What do we expect the military actions being 
proposed by the Administration will cost? Please suggest a high end and 
a low end estimate.
    Secretary Hagel. The President's guidance is that the operations in 
Syria be limited in scope, and we expect the costs to be limited as 
well. Costs will depend on the details of the operation. A reasonable 
range of costs is tens to hundreds of millions of dollars. I cannot be 
more precise at this time.
    Mr. Garamendi. I understand that one of the objectives of proposed 
military strikes is to ``degrade'' but not eliminate the Syrian 
regime's capabilities to deploy chemical weapons. Does this mean that 
Assad would retain some capacity to use chemical weapons after a U.S. 
bombing campaign? What military actions might the U.S. undertake if 
Assad uses chemical weapons after U.S. military strikes?
    Secretary Hagel. The President has been clear about the scope and 
objectives of military strikes in Syria. These strikes would be 
narrowly focused on deterring further use of chemical weapons (CW) by 
the Assad regime; degrading the regime's ability to use CW; and 
upholding a clearly established international norm against the use of 
such weapons. Any such military response would not involve U.S. boots 
on the ground in Syria.
    Even following military strikes, Assad may retain some capability 
to use chemical weapons. No military strike option could eliminate 
Syria's entire CW stockpile. The objective in undertaking such military 
action, however, would be to deter him from using these weapons again. 
The President has been clear that he will not tolerate use of chemical 
weapons. I cannot say what the President would do if this happens 
again, but we do continue to plan for a variety of contingencies.
    Mr. Garamendi. Previously, the Pentagon estimated that 75,000 
troops would be required to seize the Syrian weapons compounds. Can you 
expand upon what kinds of military actions would be required to 
actually secure Syria's chemical weapons and make sure that extremist 
elements within Syria would not have access to these weapons? What 
would this kind of an operation cost?
    Secretary Hagel. I cannot get into the details of such a mission in 
this setting, but the Department would be glad to brief you on those 
details in a closed session. A mission of this scope would require 
significant funding in order to execute such a mission, particularly 
during the current budget environment brought on by the sequester.
    Mr. Garamendi. DOD officials have confirmed that if the U.S. 
launches the proposed military strikes against Syria, we should expect 
``collateral damage.'' Can you give any estimate or range of how many 
Syrian civilians could be killed in a U.S. strike? Can you assess how 
the image of these deaths might impact recruitment within extremist 
groups that present a threat to the United States?
    Secretary Hagel. In this proposed mission, as in all others, U.S. 
military planners take all appropriate steps to minimize collateral 
damage from any military strikes to the greatest extent possible. I do 
not have more specific ranges at this time.
    Mr. Garamendi. Can you assess how U.S. military strikes might 
impact Iran's or Russia's military support for the Syrian regime?
    Secretary Hagel. [The information referred to is classified and 
retained in the committee files.]
    Mr. Garamendi. If the Syrian regime responds to U.S. strikes by 
attacking Israel, Jordan, or Turkey, what range of military actions 
would the U.S. consider in response? Do we have a plan in place for 
this contingency? Does it include the possibility of U.S. troops on the 
ground? How might these and other countries in the region, including 
specifically Lebanon and Iraq, be affected by, and potentially respond 
to, an escalation of the current conflict?
    Secretary Hagel. We are working closely with our allies and 
partners in the region to ensure that we are prepared in case of a 
counterattack. We are postured in the region to respond to a variety of 
threats. The President has been clear about his desire not to put U.S. 
boots on the ground in Syria.
    I cannot speak for other nations' responses to escalation. We are 
continuing to work with those neighbors on ways to reduce the impact of 
the Syria conflict and to ensure we can effectively address any 
escalation that might occur after a potential strike. I cannot get into 
more detail here, but I am happy to discuss further in a classified 
setting.
    Mr. Garamendi. What are the specific goals of a U.S. military 
strike against Syria? How will we assess if we have met these 
objectives? If we do not meet these objectives, do we plan to engage in 
further military actions to try to achieve them?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
    Mr. Garamendi. What do we expect the military actions being 
proposed by the Administration will cost? Please suggest a high end and 
a low end estimate.
    General Dempsey. The direct costs could vary widely, but will be 
proportional to the limited scope of the strikes; several hundred 
million dollars likely.
    Mr. Garamendi. I understand that one of the objectives of proposed 
military strikes is to ``degrade'' but not eliminate the Syrian 
regime's capabilities to deploy chemical weapons. Does this mean that 
Assad would retain some capacity to use chemical weapons after a U.S. 
bombing campaign? What military actions might the U.S. undertake if 
Assad uses chemical weapons after U.S. military strikes?
    General Dempsey. The military effort to deter and degrade Assad's 
ability to employ chemical weapons in the future is limited in scope 
and will not completely eliminate Syria's ability to deploy chemical 
weapons should it choose to do so. Potential future U.S. military 
actions beyond the proposed strikes are predicated on the President's 
purpose at that time, informed by the evolving situation.
    Mr. Garamendi. We have been told that the Assad regime retains a 
relatively robust system of command and control over the chemical 
weapons, which is partially why our intelligence community feels 
confident that we can assign responsibility to Assad for the August 21 
chemical attacks. How might U.S. strikes impact that command and 
control structure? Is it possible that if strikes fragment or 
destabilize the regime, this might expand and diversify the range of 
actors either within the Assad regime or beyond with access to and 
control over the weapons?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
    Mr. Garamendi. Previously, the Pentagon estimated that 75,000 
troops would be required to seize the Syrian weapons compounds. Can you 
expand upon what kinds of military actions would be required to 
actually secure Syria's chemical weapons and make sure that extremist 
elements within Syria would not have access to these weapons? What 
would this kind of an operation cost?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
    Mr. Garamendi. DOD officials have confirmed that if the U.S. 
launches the proposed military strikes against Syria, we should expect 
``collateral damage.'' Can you give any estimate or range of how many 
Syrian civilians could be killed in a U.S. strike? Can you assess how 
the image of these deaths might impact recruitment within extremist 
groups that present a threat to the United States?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
    Mr. Garamendi. Can you assess how U.S. military strikes might 
impact Iran's or Russia's military support for the Syrian regime?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
    Mr. Garamendi. If the Syrian regime responds to U.S. strikes by 
attacking Israel, Jordan, or Turkey, what range of military actions 
would the U.S. consider in response? Do we have a plan in place for 
this contingency? Does it include the possibility of U.S. troops on the 
ground? How might these and other countries in the region, including 
specifically Lebanon and Iraq, be affected by, and potentially respond 
to, an escalation of the current conflict?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. Please describe what you see as the advantages and 
disadvantages of referring Assad to the International Criminal Court. 
Is this something Russia might consider supporting in order to avoid 
U.S. military intervention?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Ms. Speier. Assuming the Syrian government cooperates, how long 
would it take the international community to find and secure Syria's 
chemical weapons stockpile?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Ms. Speier. Assuming the Syrian government cooperates, how long 
would it take the international community to find and secure Syria's 
chemical weapons stockpile?
    General Dempsey. The OPCW Executive Council Decision on 27 
September makes it very clear that the entire Syrian CW stockpile will 
be inspected NLT 1 NOV, with all production and mixing/filling 
equipment destroyed at that time. ``Securing'' the stockpile is not a 
part of the mandate, however completion of the inspections, thus 
identifying the details of the stockpile, could/should include securing 
the sites until elimination operations begin (must be complete by June 
2014).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER
    Mr. Barber. What are the strategic objectives that the President's 
proposed military actions are designed to secure? How are the proposed 
actions designed to meet those objectives and what would constitute 
success in the eyes of the administration?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Barber. If the United States is able to measurably degrade and 
deter the Assad regime from using chemical weapons, how does that 
specifically advance our broader policy objectives in Syria, in the 
region, and internationally?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Barber. If the United States takes military action but fails to 
deter Assad from using chemical weapons in the future, how do you 
specifically see that affecting our objectives in the region? What is 
the United States' next step?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Barber. Can you detail the efforts the State Department has 
taken to encourage international participation in a military response 
to Assad's use of chemical weapons in Syria and what has the response 
been? What allies have committed military assets in response?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Barber. What are the strategic objectives that the President's 
proposed military actions are designed to secure? How are the proposed 
actions designed to meet those objectives and what would constitute 
success in the eyes of the administration?
    Secretary Hagel. The President has been clear about the scope and 
objective of any possible military strikes in Syria. These strikes 
would be narrowly focused on the following strategic objectives: 
deterring further use of chemical weapons (CW) by the Assad regime; 
degrading the regime's ability to use CW; and upholding a clearly 
established international norm against the use of such weapons. 
Although I cannot get into the details of our planning, our military 
response would not involve U.S. boots on the ground in Syria.
    Success of military action would be assessed based on its 
effectiveness in deterring the Assad regime from using CW again and 
degrading its ability to do so, as well as further deterring others who 
might consider using CW.
    Mr. Barber. If the United States takes military action but fails to 
deter Assad from using chemical weapons in the future, how do you 
specifically see that affecting our objectives in the region? What is 
the United States' next step?
    Secretary Hagel. By degrading Assad's chemical weapons capability 
and deterring the future use of these weapons, military action would 
make clear to Assad that he will be held accountable for using chemical 
weapons as a means of waging war against his own people. Limiting 
Assad's ability to threaten the Syrian people with chemical weapons 
would weaken his hand and strengthen theirs.
    The President has very clearly stated that there will be 
consequences if Assad either further used chemical weapons or allowed 
those weapons to proliferate. As such, it is imperative that we 
demonstrate our seriousness about Assad's use of these weapons so that 
he does not feel emboldened to transfer those same weapons to extremist 
groups. There is risk in action, but the risks of inaction are even 
greater.
    We are prepared if the Assad regime conducts counterattacks, and we 
are postured in the region to respond to a variety of threats.
    Mr. Barber. President Assad has continued to move his military 
assets around the country playing what some consider elaborate shell 
games with Syrian Armed Forces, his chemical weapons, and innocent 
civilians. How is the Department proposing to engage legitimate 
military targets and deny terrorist groups the ability to gain control 
of chemical weapons while simultaneously avoiding civilian casualties?
    Secretary Hagel. The proposed limited strikes would be narrowly 
focused on deterring further use of CW by the Assad regime; degrading 
the regime's ability to use CW; and upholding a clearly established 
international norm against the use of such weapons.
    Without getting into the details of military planning or collateral 
damage estimates, I can say that our defense planners work diligently 
to ensure minimal damage under all of the options they are developing.
    Mr. Barber. What are the strategic objectives that the President's 
proposed military actions are designed to secure? How are the proposed 
actions designed to meet those objectives and what would constitute 
success in the eyes of the administration?
    General Dempsey. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CARSON
    Mr. Carson. Can you elaborate on some reports we have heard about 
the impact of refugees on Syria's neighbors--including that nearly one 
quarter of Lebanon's population is now refugees and that refugees are 
straining Jordan's economy to a breaking point? How might the strain of 
refugees impact the the short- and long-term ability of regional 
partners to participate in a strike?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Carson. What specific military resources and capabilities will 
our regional partners bring to an operation in Syria? Has this support 
been pledged already or are we still negotiating what this may entail? 
In the event of a counter strike or escalation, do you believe that our 
partners would continue to provide this support?
    Secretary Hagel. Other countries, including France, have expressed 
interest in contributing to military operations in response to Syria's 
use of chemical weapons against the civilian population. We are 
continuing to engage with several Arab countries about their potential 
roles. A number of countries and organizations, including the Arab 
League, have joined us in condemning the Assad regime's heinous acts. 
Seven countries have publicly gone on record in support of U.S. 
military action even without a Security Council mandate. They are 
France, Canada, Australia, Turkey, Denmark, Kosovo, and Albania.
    In an unclassified forum, I cannot get into specifics regarding 
what each country would contribute or their operational roles, but I 
would be glad to brief you in a classified setting.
    Mr. Carson. Can you elaborate on some reports we have heard about 
the impact of refugees on Syria's neighbors--including that nearly one 
quarter of Lebanon's population is now refugees and that refugees are 
straining Jordan's economy to a breaking point? How might the strain of 
refugees impact the the short- and long-term ability of regional 
partners to participate in a strike?
    Secretary Hagel. The humanitarian situation resulting from the 
conflict in Syria is very serious and relieving the suffering of Syrian 
civilians is critical. In addition to the challenge of providing relief 
to Syria's more than 5 million internally displaced persons, there are 
more than 2.1 million registered Syrian refugees in Lebanon, Jordan, 
Turkey, Iraq and Egypt. Lebanon, Jordan and Turkey have indeed borne 
the brunt of the refugee flow.
    This is why the United States has donated more humanitarian 
assistance than any other single donor--more than $1 billion to date--
to help the Syrian people, including internally displaced persons and 
refugees.
    Although the strain of refugees clearly impacts Syria's neighbors, 
I defer to the Intelligence Community to assess the specific impact on 
those countries' military readiness.
    Mr. Carson. What specific military resources and capabilities will 
our regional partners bring to an operation in Syria? Has this support 
been pledged already or are we still negotiating what this may entail? 
In the event of a counter strike or escalation, do you believe that our 
partners would continue to provide this support?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GIBSON
    Mr. Gibson. Thank you for your testimony before the House Armed 
Services Committee today, and for your service to this great nation. I 
regret that I did not have the opportunity to ask you questions today. 
Here, for the record, are my questions, and I appreciate your prompt 
responses.
    My question is to General Dempsey. I am looking for the analysis 
from the ``war game'' from the Joint Staff. If the responses need to be 
classified, I am more than willing to read the response in a SCIF.
    Specifically, I am interested in the following answers, with the 
risk level defined for each response (i.e. very low, low, moderate, 
high, very high):
    In the Joint Staff's war games analysis, after a military strike by 
the United States on Syria, what is the risk, and level of that risk, 
that the Assad regime will conduct another chemical attack against 
their people and deny it once again?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
    Mr. Gibson. In the Joint Staff's war games analysis, what is the 
risk, and level of that risk, of a retaliatory attack on Israel? How 
would these attacks play out according to the Joint Staff war games? 
How would other actors (i.e. Israel, Russia, Iran, USA) react to this 
attack?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
    Mr. Gibson. In the Joint Staff's war games analysis, if the 
Administration moves ahead with the military strike, what is the risk, 
and level of that risk, of attacks on the United States, including the 
homeland and overseas targets such as bases, embassies, private 
industry, and other outposts? Please delineate risk levels between the 
different targets.
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. DUCKWORTH
    Ms. Duckworth. What is the criteria for measuring the success of 
any specific planned action? It isn't regime change or attacking their 
chemical weapon compounds, so how are we going to measure a successful 
mission? If the attacks are not meant to topple Assad and he reverts 
back to using his conventional weapons, how would you quantify the 
effects of a successful strike? I have heard inclusion of an attack on 
the Syrians' ability to retaliate against rebel forces. How will this 
be measured? Does this mean there is a plan to attack Syrian 
conventional forces? How is that not going to affect the dynamics of 
the civil war there?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Ms. Duckworth. The AUMF clearly states ``no boots on the ground'' 
as part of a retaliatory strike. ``The authority granted in section 
2(a) does not authorize the use of the United States Armed Forces on 
the ground in Syria for the purpose of combat operations.'' 
Additionally, Administration officials have been abundantly clear on 
this front in numerous settings and on numerous occasions, but in 
testimony in front of the Senate Foreign Relations Committee, Secretary 
Kerry addressed a hypothetical dynamic of an ``imploding Syria'' in 
which boots on the ground could be used in order to prevent WMD from 
falling into enemy hands.
    Secretary Kerry said: in the event Syria imploded, for instance, or 
in the event there was a threat of a chemical weapons cache falling 
into the hands of Al-Nusra or someone else, and it was clearly in the 
interests of our allies and all of us--the British, the French and 
others--to prevent those weapons of mass destruction falling into the 
hands of the worst elements, I don't want to take off the table an 
option that might or might not be available to a President of the 
United States to secure our country.
    Furthermore, in April, Secretary Hagel testified to the Senate 
Armed Services Committee that the 200+ troops from the 1st Armored 
Division, will work alongside Jordanian forces to ``improve readiness 
and prepare for a number of scenarios'' and that the Pentagon had the 
capability to expand the forces to 20,000 in order to secure chemical 
weapons in Syria or if the President chooses to enter into the Syrian 
conflict. Is this mission for this 1st Armored Division cell still 
active? Doesn't this run counter to the ``no boots on the ground'' 
planning of the authorization you are seeking? And what are the nature 
of the ``number of scenarios'' that the Secretary testified to? As 
presently postured, are current troop levels in the region sufficient 
to deal with these different scenarios?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Ms. Duckworth. To what extent have various types of possible, boots 
on the ground scenarios (as referenced to in my above question and as 
testified to by Secretary Kerry) been thought about and ``red-teamed''? 
Does the President have additional or other authorizing mechanisms at 
his disposal that would allow immediate action to prevent WMD from 
falling into Al Qaeda, Al Nusra etc. hands? Has the administration 
calculated the potential cost in terms of troops needed and military 
resources needed for the various red-teamed contingency scenarios?
    Chemical weapons falling into the hands of extremist elements is a 
worst-case scenario, but nevertheless a very real concern--one that 
needs to be given careful consideration--given the possible 
destabilizing effects of military intervention. To what extent have 
negotiations taken place with our Arab League allies about their 
possible support of a mission to secure loose WMD in Syria? Are our 
Gulf State allies (Kuwait, UAE, Qatar, Turkey, Saudi Arabia) prepared 
and committed to provide forces (ground troops, air strike capability, 
etc.) in order to support our efforts? Where do these current 
diplomatic efforts stand and what is the extent/nature of their 
willingness to support?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Ms. Duckworth. What is the criteria for measuring the success of 
any specific planned action? It isn't regime change or attacking their 
chemical weapon compounds, so how are we going to measure a successful 
mission? If the attacks are not meant to topple Assad and he reverts 
back to using his conventional weapons, how would you quantify the 
effects of a successful strike? I have heard inclusion of an attack on 
the Syrians' ability to retaliate against rebel forces. How will this 
be measured? Does this mean there is a plan to attack Syrian 
conventional forces? How is that not going to affect the dynamics of 
the civil war there?
    Secretary Hagel. The President has been clear about the scope and 
objective of possible military strikes in Syria. These strikes would be 
narrowly focused on deterring further use of chemical weapons (CW) by 
the Assad regime; degrading the regime's ability to use CW; and 
upholding a clearly established international norm against the use of 
such weapons.
    The President has decided that a military response to the Syrian 
regime's use of CW should be limited and proportional. The President 
has made clear that this would not be an open-ended intervention, and 
that we would not put boots on the ground in Syria. This has not 
changed.
    Success of military action would be assessed based on its 
effectiveness in deterring the Assad regime from using CW again and 
degrading its ability to do so, as well as further deterring others who 
might consider using CW.
    Ms. Duckworth. The AUMF clearly states ``no boots on the ground'' 
as part of a retaliatory strike. ``The authority granted in section 
2(a) does not authorize the use of the United States Armed Forces on 
the ground in Syria for the purpose of combat operations.'' 
Additionally, Administration officials have been abundantly clear on 
this front in numerous settings and on numerous occasions, but in 
testimony in front of the Senate Foreign Relations Committee, Secretary 
Kerry addressed a hypothetical dynamic of an ``imploding Syria'' in 
which boots on the ground could be used in order to prevent WMD from 
falling into enemy hands.
    Secretary Kerry said: in the event Syria imploded, for instance, or 
in the event there was a threat of a chemical weapons cache falling 
into the hands of Al-Nusra or someone else, and it was clearly in the 
interests of our allies and all of us--the British, the French and 
others--to prevent those weapons of mass destruction falling into the 
hands of the worst elements, I don't want to take off the table an 
option that might or might not be available to a President of the 
United States to secure our country.
    Furthermore, in April, Secretary Hagel testified to the Senate 
Armed Services Committee that the 200+ troops from the 1st Armored 
Division, will work alongside Jordanian forces to ``improve readiness 
and prepare for a number of scenarios'' and that the Pentagon had the 
capability to expand the forces to 20,000 in order to secure chemical 
weapons in Syria or if the President chooses to enter into the Syrian 
conflict. Is this mission for this 1st Armored Division cell still 
active? Doesn't this run counter to the ``no boots on the ground'' 
planning of the authorization you are seeking? And what are the nature 
of the ``number of scenarios'' that the Secretary testified to? As 
presently postured, are current troop levels in the region sufficient 
to deal with these different scenarios?
    Secretary Hagel. The President has decided that any U.S. military 
response to the Syrian regime's use of chemical weapons (CW) should be 
limited and proportional. The President has made clear that this would 
not be an open-ended intervention, and that we would not put boots on 
the ground in Syria. This has not changed.
    The United States has maintained robust defense relationships with 
Syria's neighbors for many years. This includes elements of the 1st 
Armored Division headquarters, as well as other military assets, 
currently stationed in Jordan. In addition to sharing intelligence, 
liaising with their Jordanian counterparts, and consulting on regional 
security issues, part of this element's mission is to facilitate 
planning for a variety of scenarios related to the ongoing crisis in 
Syria, including humanitarian assistance. As you can appreciate, I 
cannot get into the details of military planning in an unclassified 
forum.
    Although the President has not made any decisions about specific 
assets to use in a potential strike on Syria, we have sufficiently 
postured naval and air assets in the region to achieve these 
objectives. Those forces are there under normal rotational or 
stationing arrangements.
    Ms. Duckworth. To what extent have various types of possible, boots 
on the ground scenarios (as referenced to in my above question and as 
testified to by Secretary Kerry) been thought about and ``red-teamed''? 
Does the President have additional or other authorizing mechanisms at 
his disposal that would allow immediate action to prevent WMD from 
falling into Al Qaeda, Al Nusra etc. hands? Has the administration 
calculated the potential cost in terms of troops needed and military 
resources needed for the various red-teamed contingency scenarios?
    Chemical weapons falling into the hands of extremist elements is a 
worst-case scenario, but nevertheless a very real concern--one that 
needs to be given careful consideration--given the possible 
destabilizing effects of military intervention. To what extent have 
negotiations taken place with our Arab League allies about their 
possible support of a mission to secure loose WMD in Syria? Are our 
Gulf State allies (Kuwait, UAE, Qatar, Turkey, Saudi Arabia) prepared 
and committed to provide forces (ground troops, air strike capability, 
etc.) in order to support our efforts? Where do these current 
diplomatic efforts stand and what is the extent/nature of their 
willingness to support?
    Secretary Hagel. Both the President and I share your concerns about 
WMD falling into the hands of terrorist or extremist organizations. I 
cannot get into the specifics of our planning, but let me assure you 
that we are planning for a variety of contingencies. The Department 
would be happy to provide more details in a closed setting. The 
President has made clear to the Assad regime that it will be held 
accountable if the regime's chemical weapons are allowed to proliferate 
to extremist groups. We are also actively engaging with our partners in 
the region to ensure they are aware of our concerns about the spread of 
these terrible weapons. Additionally, we are using Cooperative Threat 
Reduction (CTR) Program funds to assist Syria's neighbors with efforts 
to prevent and, if needed, detect the proliferation of WMD across their 
borders. Those nations understand our concerns and have voiced a 
willingness to help prevent these weapons from spreading. I can also 
assure you that we will continue to make non-proliferation of weapons 
of mass destruction a priority for as long as needed.
    Ms. Duckworth. What is the criteria for measuring the success of 
any specific planned action? It isn't regime change or attacking their 
chemical weapon compounds, so how are we going to measure a successful 
mission? If the attacks are not meant to topple Assad and he reverts 
back to using his conventional weapons, how would you quantify the 
effects of a successful strike? I have heard inclusion of an attack on 
the Syrians' ability to retaliate against rebel forces. How will this 
be measured? Does this mean there is a plan to attack Syrian 
conventional forces? How is that not going to affect the dynamics of 
the civil war there?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
    Ms. Duckworth. The AUMF clearly states ``no boots on the ground'' 
as part of a retaliatory strike. ``The authority granted in section 
2(a) does not authorize the use of the United States Armed Forces on 
the ground in Syria for the purpose of combat operations.'' 
Additionally, Administration officials have been abundantly clear on 
this front in numerous settings and on numerous occasions, but in 
testimony in front of the Senate Foreign Relations Committee, Secretary 
Kerry addressed a hypothetical dynamic of an ``imploding Syria'' in 
which boots on the ground could be used in order to prevent WMD from 
falling into enemy hands.
    Secretary Kerry said: in the event Syria imploded, for instance, or 
in the event there was a threat of a chemical weapons cache falling 
into the hands of Al-Nusra or someone else, and it was clearly in the 
interests of our allies and all of us--the British, the French and 
others--to prevent those weapons of mass destruction falling into the 
hands of the worst elements, I don't want to take off the table an 
option that might or might not be available to a President of the 
United States to secure our country.
    Furthermore, in April, Secretary Hagel testified to the Senate 
Armed Services Committee that the 200+ troops from the 1st Armored 
Division, will work alongside Jordanian forces to ``improve readiness 
and prepare for a number of scenarios'' and that the Pentagon had the 
capability to expand the forces to 20,000 in order to secure chemical 
weapons in Syria or if the President chooses to enter into the Syrian 
conflict. Is this mission for this 1st Armored Division cell still 
active?
    General Dempsey. There is a military headquarters element deployed 
to Jordan consisting of approximately 300 U.S. personnel. These 
personnel participate in military-to-military engagements and conduct 
planning with the Jordanian Armed Forces. If the situation in Syria 
deteriorates, this headquarters element could provide a Command and 
Control capability in support of military operations, but the main 
purpose of the HQs is to build trust with and demonstrate commitment to 
the Jordanian Armed Forces.
    Ms. Duckworth. Doesn't this run counter to the ``no boots on the 
ground'' planning of the authorization you are seeking?
    General Dempsey. As it stands, these forces are not in violation of 
the ``no boots on the ground'' policy since they are based in Jordan 
and have no authority to enter into Syria.
    Ms. Duckworth. And what are the nature of the ``number of 
scenarios'' that the Secretary testified to?
    General Dempsey. Prudent military planning has been conducted since 
the conflict in Syria started over two years ago. These efforts will 
continue as the situation in Syria develops. Multiple plans have been 
and are being developed and refined to provide options to the 
President. The U.S. military is conducting planning with potential 
partner nations for all possible contingencies so that we can respond 
appropriately to any situation, consistent with our national interests.
    Ms. Duckworth. As presently postured, are current troop levels in 
the region sufficient to deal with these different scenarios?
    General Dempsey. The number of personnel required to effectively 
respond to any of the contemplated scenarios varies. The force levels 
could remain unchanged or increase depending on the response selected 
by the President of the United States.
    Ms. Duckworth. To what extent have various types of possible, boots 
on the ground scenarios (as referenced to in my above question and as 
testified to by Secretary Kerry) been thought about and ``red-teamed''? 
Does the President have additional or other authorizing mechanisms at 
his disposal that would allow immediate action to prevent WMD from 
falling into Al Qaeda, Al Nusra etc. hands? Has the administration 
calculated the potential cost in terms of troops needed and military 
resources needed for the various red-teamed contingency scenarios?
    Chemical weapons falling into the hands of extremist elements is a 
worst-case scenario, but nevertheless a very real concern--one that 
needs to be given careful consideration--given the possible 
destabilizing effects of military intervention. To what extent have 
negotiations taken place with our Arab League allies about their 
possible support of a mission to secure loose WMD in Syria? Are our 
Gulf State allies (Kuwait, UAE, Qatar, Turkey, Saudi Arabia) prepared 
and committed to provide forces (ground troops, air strike capability, 
etc.) in order to support our efforts? Where do these current 
diplomatic efforts stand and what is the extent/nature of their 
willingness to support?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ENYART
    Mr. Enyart. Do/can the U.S. and Russian interests align in Syria? 
If so what, if anything, can Congress do to help align them?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Enyart. Syria is not governed by its Sunni majority. It is 
aligned with the only Shia led nation, Iran. Our major supply lines to 
Afghanistan cross over or thru Pakistan and other Islamic countries. We 
have seen Pakistan shut down supply routes before. What is your 
assessment of the likelihood of Pakistan or other Sunni nations acting 
to shut down supply routes to Afganistan?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Enyart. Russia appears to want to eliminate chemical weapons in 
Syria to protect Assad's rule. I suspect to keep their Naval base in 
Syria and maintain Syria as a client state. If Assad turns over the CW 
to international control is the U.S. prepared to allow Assad to stay in 
control or seek asylum?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Enyart. What impact will military strikes in Syria have on our 
mission in Afghanistan?
    Secretary Kerry. [The information was not available at the time of 
printing.]
    Mr. Enyart. Do/can the U.S. and Russian interests align in Syria? 
If so what, if anything, can Congress do to help align them?
    Secretary Hagel. Russia is reluctant to abandon its long-standing 
relationship with the Assad regime. Nonetheless, Russia shares our 
concerns, and those of the international community, regarding what it 
views as the potential for regional instability should this conflict 
remain unresolved and Syria retain its chemical weapons program. The 
United States and Russia have agreed on a framework to eliminate 
Syria's chemical weapons program. This framework agreement represents 
an important step toward degrading the Assad regime's ability to use 
chemical weapons. Congress's continued support for this challenging, 
yet extremely important program is crucial to hastening a political 
transition in Syria and bringing an end to this conflict.
    Mr. Enyart. Syria is not governed by its Sunni majority. It is 
aligned with the only Shia led nation, Iran. Our major supply lines to 
Afghanistan cross over or thru Pakistan and other Islamic countries. We 
have seen Pakistan shut down supply routes before. What is your 
assessment of the likelihood of Pakistan or other Sunni nations acting 
to shut down supply routes to Afganistan?
    Secretary Hagel. Since the ground lines of communication through 
Pakistan reopened in July 2012, we have steadily improved our bilateral 
defense relationship. We do not believe that Pakistan would respond to 
a U.S. strike against Syria by shutting down the supply routes. 
Although all Central Asia republics are predominantly Islamic, and four 
of the five have Sunni majorities, they are still largely secular 
states and we assess religious considerations are not drivers in their 
political decision-making. We assess that Central Asian states will 
continue to support U.S. supply routes to Afghanistan.
    Mr. Enyart. Russia appears to want to eliminate chemical weapons in 
Syria to protect Assad's rule. I suspect to keep their Naval base in 
Syria and maintain Syria as a client state. If Assad turns over the CW 
to international control is the U.S. prepared to allow Assad to stay in 
control or seek asylum?
    Secretary Hagel. Our policy remains that Assad must go, and we 
would remain committed to this policy if Assad did agree to turn over 
his stockpile of chemical weapons. We have been clear for quite some 
time that Assad has lost all legitimacy to lead the Syrian people. 
Assad must do more than agree to turn over his chemical weapons. His 
regime must be held accountable for ensuring the full implementation of 
this kind of agreement.
    Mr. Enyart. What impact will military strikes in Syria have on our 
mission in Afghanistan?
    Secretary Hagel. The ongoing mission in Afghanistan remains a 
priority for both the President and me, and we are committed to a 
responsible drawdown of U.S. forces and assets in the region on a 
timeline consistent with U.S. commitments at the 2012 NATO Summit in 
Chicago and the President's 2013 State of the Union Address. With this 
in mind, any U.S. military strikes in Syria will not impact our ongoing 
mission in Afghanistan.
    Mr. Enyart. Do/can the U.S. and Russian interests align in Syria? 
If so what, if anything, can Congress do to help align them?
    General Dempsey. The U.S. and Russia do have shared interest in 
facilitating cooperation toward resolution of the Syrian conflict in a 
peaceful manner while ensuring the conflict is not exacerbated or 
spread into border regions. We both seek to minimize the prospects for 
propagation of radicalism and terrorism. We are working on cooperative 
efforts to ensure a comprehensive declaration and elimination of Syrian 
CBW stocks, as well as effective international verification of all 
activities pertaining to the secure storage and timely elimination of 
CBW stocks and related equipment.
    Mr. Enyart. Syria is not governed by its Sunni majority. It is 
aligned with the only Shia led nation, Iran. Our major supply lines to 
Afghanistan cross over or thru Pakistan and other Islamic countries. We 
have seen Pakistan shut down supply routes before. What is your 
assessment of the likelihood of Pakistan or other Sunni nations acting 
to shut down supply routes to Afganistan?
    General Dempsey. [The information referred to is classified and 
retained in the committee files.]
    Mr. Enyart. Russia appears to want to eliminate chemical weapons in 
Syria to protect Assad's rule. I suspect to keep their Naval base in 
Syria and maintain Syria as a client state. If Assad turns over the CW 
to international control is the U.S. prepared to allow Assad to stay in 
control or seek asylum?
    General Dempsey. I defer to the Department of State to comment on 
our current diplomatic efforts regarding Assad's political future.
    Mr. Enyart. What impact will military strikes in Syria have on our 
mission in Afghanistan?
    General Dempsey. Military strikes in Syria will not impact our 
ongoing mission in Afghanistan. The military forces and assets arrayed 
for operations against Syria have been carefully selected to ensure 
they have not been re-directed or drawn from forces supporting ongoing 
U.S. operations in Afghanistan.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. NOEM
    Mrs. Noem. The Administration has argued that Iran, Hezbollah and 
North Korea are watching the U.S. response to Syria's chemical weapons 
use. If this is the case then how would you explain the lack of action 
over the past year when there was ``high confidence'' intelligence that 
Assad's regime had used chemical weapons on a small scale multiple 
times?
    Secretary Hagel. Following the Assad regime's prior use of chemical 
weapons, the United States did take action. Specifically, we augmented 
the provision of non-lethal assistance to the civilian opposition, and 
authorized the expansion of our assistance to the Supreme Military 
Council (SMC). Movement to kinetic action would be the result of a 
deliberate process designed to respond to an intransigent, reckless 
regime that uses chemical weapons against its own people.
    The indiscriminate and large-scale use of chemical weapons by the 
regime on August 21 violates clearly established international norms 
against the use of chemical weapons and the law of war. Left 
unanswered, there is serious danger that the August 21 use of chemical 
weapons would lead to further use in this and future conflicts. The 
August 21 attack threatens to destabilize this important region 
further, and thereby threaten core U.S. security interests.
    Mrs. Noem. Many of the intelligence reports have indicated ``high 
confidence'' about Assad's use of chemical weapons. However, similar 
intelligence estimates with the same distinction have been wrong in the 
past. Is there a specific probability or methodology for labeling 
intelligence ``high confidence''?
    Secretary Hagel. High confidence generally indicates that our 
judgments are based on high-quality information, and/or that the nature 
of the issue makes it possible to render a solid judgment. A ``high 
confidence'' judgment is not a fact or a certainty, however, and such 
judgments still carry a risk of being wrong. High quality information 
can be described as well-corroborated from proven sources, requires 
minimal assumptions, and is based on strong logical inferences.
    Mrs. Noem. Do you agree or disagree that Assad's reputation within 
Syria would be strengthened if his regime were able to withstand a U.S. 
strike?
    Secretary Hagel. [The information referred to is classified and 
retained in the committee files.]

                                  <all>

</pre></body></html>
